<html>
<title> - E-911 IMPLEMENTATION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    E-911 IMPLEMENTATION ACT OF 2003

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2898

                               __________

                           SEPTEMBER 11, 2003

                               __________

                           Serial No. 108-47

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

89-469              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                      Ranking Member
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      KAREN McCARTHY, Missouri
PAUL E. GILLMOR, Ohio                MICHAEL F. DOYLE, Pennsylvania
CHRISTOPHER COX, California          JIM DAVIS, Florida
NATHAN DEAL, Georgia                 RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               PETER DEUTSCH, Florida
HEATHER WILSON, New Mexico           ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       BART STUPAK, Michigan
Mississippi                          ELIOT L. ENGEL, New York
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       GENE GREEN, Texas
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Addington, Terry W., President and Chief Executive Officer, 
      First Cellular of Southern Illinois........................    31
    Berry, Tim, State Treasurer, State of Indiana................     9
    Haynes, Anthony C., Executive Director, Tennessee Emergency 
      Communications Board, Department of Commerce and Insurance.    23
    Muleta, John B., Bureau Chief, W.reless Telecommunications, 
      Federal Communications Commission..........................    14

                                 (iii)

  

 
                    E-911 IMPLEMENTATION ACT OF 2003

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2003

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Shimkus, Terry, 
Markey, Eshoo and Green.
    Staff present: Howard Waltzman, majority counsel; Will 
Nordwind, majority counsel and policy coordinator; Will Carty, 
legislative clerk; and Peter Filon, minority counsel.
    Mr. Upton. Good morning. First I want to say that the House 
decided last night when we adjourned about 10, I guess it was, 
or 11, that we would not have votes today, so a number of 
members have gone back to their districts. We do expect a few 
other members to show, and we decided that we would go ahead 
with the hearing when they announced that there would be no 
votes.
    I want to welcome everyone to today's hearing. Of course 
today marks the second anniversary of September 11, so it is a 
day for sober reflection, particularly as we look at the clock 
right now. But I thought that we would just start with a brief 
moment of silence for the victims of the tragedy and their 
families and so many that were impacted.
    God bless them all.
    As we get started today, I think of where I was 2 years ago 
when the events of that fateful day began to unfold. Some of 
you were with me that day. I was at a press conference on the 
Senate side discussing the importance of E-911 phase II 
deployment to the safety of the American people. The rest, as 
they say, is history.
    It is very fitting that today, precisely 2 years later, we 
are holding a legislative hearing on a very important 
bipartisan piece of legislation, the E-911 Implementation Act 
of 2003, which was introduced by our able colleagues, Mr. 
Shimkus from Illinois and Ms. Eshoo from California. I want to 
commend them for their outstanding leadership on this issue, 
and I am very proud to be an original cosponsor of this measure 
along with numerous other members of the subcommittee.
    To be sure, throughout the past couple of years, much 
progress has been made on E-911 phase II deployment. By and 
large, our Nation's largest wireless carriers have held up 
their end of the bargain.
    But, as we learned from our June hearing on this matter, 
there are some significant hurdles which cry out for our 
attention, and H.R. 2898 answers that call. First and foremost, 
we need to help our Nation's PSAPs cope with the financial 
demands of becoming phase-II-ready. This bill answers that call 
by providing a significant grant program to States and 
municipalities to help them procure their phase II equipment 
and training.
    Second, we need to ensure coordination and information 
sharing at all levels of government and with other stakeholders 
as they continue to sort through the maze of challenges that 
lay ahead. This bill answers that call by not only 
incentivizing States to have statewide E-911 coordinators, but 
also establishing a new Federal E-911 coordination office.
    Third, we learned that some of our Nation's rural carriers 
faced unique challenges in complying with the FCC's accuracy 
requirements. This bill answers that call, too, by directing 
the FCC to address those challenges.
    Fourth, we heard that some States have raided E-911 
surcharge moneys collected from wireless customers for things 
completely unrelated to E-911. This is nothing more than 
picking the pockets of the consumers and stealing the funds 
which should be going toward deployment of this lifesaving 
technology. This bill answers that call by creating stiff 
disincentives to States who raid their E-911 funds.
    Finally, I want to say a word about which Federal agency 
will house the Federal E-911 coordination office and distribute 
the grant dollars. This bill would place these responsibilities 
within the NTIA.
    As many of the members of the subcommittee may know, we are 
still awaiting a decision from the Bush Administration as to 
which agency should control the activities required by the 
legislation. We are told, we are led to believe, that that 
decision may be made as early as next week. I would, therefore, 
ask unanimous consent that any written communication from the 
administration on this matter be included in the record of 
today's hearing. And without objection, so ordered.
    In closing, I want to mention that it is my strong desire 
to mark up this legislation in the subcommittee in the not too 
distant future, perhaps as early as next week. I look forward 
to working with Mr. Markey, the authors of this legislation, my 
colleagues on both side of the aisle as we seek to make a good 
bill even better.
    I look forward to hearing from today's panelists. I 
particularly want to welcome Mr. Muleta back to the 
subcommittee, and thank the other witnesses who have traveled 
great lengths to be with us today. Your input will be of great 
assistance to us as we prepare to move this bill through the 
legislative process.
    At this point I will recognize Mr. Terry from Nebraska for 
an opening statement.
    Mr. Terry. I will yield back my time. I want to hear from 
the panelists before my plane.
    Mr. Upton. All right. The gentleman defers. You get extra 
minutes for questions.
    I now recognize the gentleman from Illinois, soon to be a 
Cub fan for the National League when the Cardinals fold, Mr. 
Shimkus, original sponsor of the bill.
    Mr. Shimkus. Never. I used to always say wait until 
September. But I can't do that anymore. So there is always 
hope.
    Thank you, Chairman Upton, for calling this hearing this 
morning. And I did talk to my colleague, Ann Eshoo. I think she 
was planning on being here, so I think that we should expect 
her to pop up. You know, a lot of members decided to go home, 
go to memorial services, but I can't think of a better thing to 
do than to be here in Washington and talk about this issue, 
because as we have heard through the tapes and transcripts, and 
know what we know about emergency responding, this is really an 
appropriate hearing to have this day, Mr. Chairman. So I am 
glad you decided to stay the course and be here.
    While public safety answering points are able to know the 
location of 95 percent of wireline 911 calls, we are here today 
because only about 15 percent of the Nation's PSAPs are capable 
of processing wireless 911 calls. Meanwhile, 50 percent of the 
calls made to PSAPs each day come from wireless phones, and 
that percentage is growing.
    Our Nation's communication technology has changed, but our 
emergency response infrastructure has not been updated. This 
leads to many people needlessly at risk.
    The most significant remaining hurdle to ubiquitous E-911 
services is PSAP readiness; however, most of the remaining 
PSAPs lack the funding necessary to upgrade their systems. And 
many States have aggravated the situation by using the 
subscriber fees collected on phone bills for E-911 services to 
help cover budget shortfalls.
    To address this growing problem, I join my colleague in the 
House of Representatives, Ann Eshoo, and Senator Burns and 
Senator Clinton to form the Congressional E-911 Caucus. 
Together we have pushed legislation that will enhance 
coordination of E-911 implementation in each State, discourage 
the raiding of E-911 funds, and give local PSAPs additional 
funding to help them finally achieve enhanced 911 capability.
    H.R. 2898, the E-911 Implementation Act of 2003, will do 
four major things to advance E-911 development: One, it 
authorizes $100 million for 5 years to provide PSAPs with 
matching grants to help them with much-needed upgrades.
    Two, it penalizes States for diverting E-911 funds. Under 
this legislation PSAPs will not be eligible for matching grants 
until their States certify that they have stopped using their 
E-911 moneys for other purposes.
    Three, it creates an E-911 office at the National 
Telecommunications Information Administration that will serve 
as a clearinghouse for best practices in the deployment of the 
E-911 and to administer the grant program.
    And, four, it directs the FCC to review its E-911 accuracy 
requirements for rural areas to determine if they adequately 
address the complexities associated with providing E-911 
services.
    I would like to thank the distinguished panel for being 
here this morning to give us perspective and guidance on this 
legislation. I am especially proud to welcome my constituent 
Terry Addington, who has traveled here from Mt. Vernon, 
Illinois. You have heard me mention that community and his 
company numerous times in this debate, where he is CEO and 
president of First Cellular of Southern Illinois, a small rural 
carrier. Offering service in rural areas presents unique 
challenges, and Terry will be telling his story about how he is 
working to provide E-911 service to all of his customers and 
roamers who use his network.
    And with my remaining time, Mr. Chairman, I also want to--
and I mentioned to my staffer Courtney Anderson that every time 
I have minutes to speak, I am also going to take the time to 
talk about kids.us which on September 4, 2003, Newsstar began 
taking registrations for this child-friendly space on the 
Internet.
    The Smithsonian was the first to put up the kids site. 
Disney is not far behind; after having called them, there are 
positive signals. And I encourage all of you on this 
subcommittee to join me in setting up child-oriented 
congressional home pages. We are working with Bob Ney and House 
Administration Services.
    And I want to challenge anybody out there who is a 
corporate entity, nonprofit, parent that I think this kids.us 
site is one of the exciting things that we have done here in 
the last Congress. But the whole supply and demand equation, it 
will only work if there is supply out there, which means people 
on the service, and demand, parents demanding a safe site for 
kids to surf on the Internet.
    And I am going to talk to my good friend Mr. Largent, who 
is going to be involved with the CTIA, and encourage him to be 
involved with kids.us.
    With that I yield back my time.
    Mr. Upton. We thank you for your leadership on that, and 
virtually every member of this subcommittee, as we pushed that 
legislation through last year. I am going to have an 
upton.kids.us site. I have got two kids. You have got a couple 
of kids. I know Lee Terry has got three kids. I think it is a 
wonderful opportunity.
    I would note that we have C-SPAN covering this hearing 
today, so hopefully millions of listeners will see that as 
well.
    At this point I would like to recognize my colleague, Mr. 
Green from Texas, for an opening statement, and one that I was 
standing next to 2 years ago on this fateful day over on the 
Senate side on this same issue.
    Mr. Green.  Thank you, Mr. Chairman. And thank you for 
calling this hearing, particularly on this day. Like you said, 
2 years ago you and I were at a 911 event with Senator Burns on 
the Senate side, E-911, talking about how important it is to 
have an expanded 911 system. And we learned that day here in 
Washington, as well as New York, like we learned pretty often, 
about how we have holes in our system still.
    And I again, I think it is fitting that our committee today 
is taking care of the public safety business before we gather 
on the Capitol steps in an hour or so. E-911 is saving lives 
right now in my hometown in Houston. We are blessed with a 
great local 911 organization, the Greater Harris County 911 
Emergency Network, led my John Melcher, who has testified 
before our committee before, who is also president of the 
National Emergency Number Association.
    I congratulate the authors of 2898, both my colleague and 
friend Ann Eshoo, and my basketball partner sometimes, John 
Shimkus, for working hard to get this legislation together and 
moving so we can get this going across America and save more 
lives from accidents, crime and terrorism. And I am proud to be 
an original cosponsor.
    All of our major carriers, AT&T Wireless, Cingular, 
Verizon, Nextel, Sprint, and T-Mobile, deserve credit for 
moving forward with E-911 at a time of many competing 
regulatory demands. But that is not the whole story, which is 
why our legislation is going to help the smaller and rural 
carriers handle this responsibility through grants and 
encouraging regulatory flexibility.
    Back in the 2001 hearing, we thought that we would get 
nationwide E-911 by 2005. Now we are hearing 2006. And it is 
vitally important that we do it earlier or are at least on 
time. And, Mr. Chairman, I look forward to moving this bill to 
the floor, both from our committee, but also to the Senate so 
the President can sign and we can get this on track.
    I know in an urban area, we went through this problem 
earlier. When we created our 911 in the 1980's in an urban area 
in Houston, I had constituents, when we created the statewide 
one, say, why do I need to pay to the statewide system, because 
we are paying here locally? And I said, well, every once in a 
while in Texas you do go out to deer hunt in west Texas, and I 
think you would like to probably have--if you have an accident 
on that road, you would like to be able to have someone to 
respond to you by using 911. Even though you are paying twice--
you are paying in an urban area and statewide--because we need 
to have that seamless network not only statewide, but we need 
to have it nationwide.
    With that, Mr. Chairman, again, because of the day and the 
side benefit that we need 911 because of the terrorism response 
and its primary purpose in communication during accidents and 
crimes. So thank you again for holding this hearing.
    Mr. Upton. Thank you.
    I would like to recognize now for an opening statement one 
of the two prime sponsors of the bill, Ms. Eshoo from 
California.
    Ms. Eshoo. Thank you very much, Mr. Chairman. And good 
morning to you and to all of my colleagues that are here, 
certainly to the witnesses that are here as well. I want to 
thank you for holding this hearing.
    Today is an important day in the life of our country as we 
commemorate American lives lost, and I think that one of the 
lasting memories of that day was the use of wireless phones, 
where people that were trapped in the buildings called their 
loved ones. And it was the last time that they heard their 
voices, and it was the last words that they expressed either to 
their husband, wives, their loved ones. So it is with mixed 
emotions that--not about the legislation, but about the 
sobering aspects of today that we have gathered.
    I appreciate what you have done to help move this along. I 
want to salute my wonderful partner in this, John Shimkus. He 
really has been a longtime partner and terrific to work with.
    I think that also that it takes time for issues to mature 
in the Congress. I started out on this journey in 1996. And E-
911, I guess, was related to ET at the time. I mean, people 
thought that, you know, what has this Member of Congress 
thought of? And yet steps have been taken, and now we are here 
with what I think is a very sound bill. Certainly it is a 
starting point, but it is more than a serious starting point, 
because the issue has grown in the Congress.
    There is a huge appreciation on the part of the American 
people where over 140,000 wireless 911 calls are made every day 
in our country. That represents over half of all 911 calls that 
are made, and each one of those calls for so many is the single 
most important call that that individual will make.
    So clearly the use of wireless helps to save lives, does 
save lives. But we have some holes in the system. And the work 
of the Congress, since our country was attacked, was to improve 
our public safety system. If, in fact, we are going to have 
homeland security, we have to have hometown security. So in the 
towns and cities all over our country, this system needs to be 
solidified.
    Our bill, the E-911 Implementation Act of 2003, creates an 
E-911 implementation and coordination office at the NTIA to 
facilitate coordination between the three levels of government, 
the Federal, State and local emergency communication entities.
    It authorizes $500 million in grants over 5 years to 
enhance emergency communications systems. This is going to take 
an investment. If, in fact, it is going to work, it is going to 
take an investment. The investment is going to pay off. If we 
can ask the private sector to make the investments that they 
have had to make, along with the regulatory system, then the 
Congress collectively has to see to it that we invest public 
dollars in this as well. These grants would be administered by 
NTIA and would require a 50 percent State match, and it would 
also prevent States from misusing the funds that are collected 
for E-911 services for other purposes.
    That is part of the problem. And this is not to play 
gotcha, but we have to be fair and recognize that people are 
paying into this, and that it benefits each and Every State in 
our Union if, in fact, the funds that are paid are directed to 
what their original purpose is for.
    So I look forward to working with you, Mr. Chairman. I 
thank you again for holding this hearing; to John Shimkus, to 
the original cosponsors, to all of the sponsors of the 
legislation from the House Energy and Commerce Committee. I 
think we are going to have a very important and proud product 
to present to the full committee and to our colleagues on the 
floor of the House.
    Again, E-911 does save lives, but in order to save more and 
to do more, we have to do more. And I think that is what this 
legislation represents. So thank you again, and I look forward 
to the hearing.
    Mr. Upton. Thank you very much.
    Again, I just want to say that because the House will not 
be having recorded votes today, a number of members are leaving 
this morning to go back to their districts for the weekend. And 
at this point I would ask unanimous consent that their opening 
statements, those members not here, be made part of the record. 
Without objection, it is so ordered.
    [Additional statements submitted for the record follows:]

   Prepared Statement of Hon. Paul E. Gillmor, , a Representative in 
                    Congress from the State of Ohio

    I thank the Chairman for the opportunity to consider H.R. 2898, a 
measure that helps ensure cell phone users can be located during 
emergencies. As an original cosponsor of the E-911 Implementation Act 
of 2003, I again applaud the work of Representatives Shimkus and Eshoo.
    As we know, 911 calls from wireless telephone users have increased 
and delays in implementing E911 capabilities persist, emergency after 
accident across the country. Van Wert County in my rural Ohio district 
is currently implementing Phase I of E911, essentially providing a 
nearby dispatcher the caller's cell phone number and nearest cell 
tower, narrowing the person's location to a couple blocks in a city, or 
in my district, within a few square miles. Less than 3% of counties in 
Ohio have implemented Phase II deployments.
    Furthermore, I support H.R. 2898's aim to improve the coordination, 
communication, and cost issues of implementing E911 to all parties 
affected. I look forward to debate and remain optimistic that we will 
soon produce a meaningful measure for the House floor.
    Again, I thank the Chairman and yield back the remainder of my 
time.

                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman.
    I would like to thank you for holding this hearing to examine H.R. 
2898, the E-911 Implementation Act of 2003, and build on the progress 
we made during our hearing on wireless E-911 implementation earlier 
this year. With over 140 million Americans owning wireless phones 
today, there is no question that the deployment of wireless E-911 is a 
pressing priority and part of the foundation of homeland security. 
Additionally, with an increasing number of folks disconnecting their 
landline telephones, and being fully untethered, the benefits of 
America's mature wireline E-911 are available to fewer and fewer 
households each day.
    In our previous hearing on this topic, we outlined the hurdles that 
block the road to ubiquitous E-911 coverage. Since then, through the 
leadership of Representatives Shimkus and Eshoo, co-chairs of the E-911 
caucus, a bill has been introduced that will help get all stakeholders 
on the same page and marching to the same drum beat. I also wish to 
thank Chairman Upton for playing an important role in moving the ball 
down the field and calling the Subcommittee together to tackle the 
problems facing E-911. I am looking forward to hearing testimony from 
our broad-based panel about whether this legislation will help the 
industry, the public safety answering points and emergency responders 
come together to clear the hurdles that have impeded the rollout of 
ubiquitous E-911 coverage.
    I understand that the marketplace does not always meet a federal 
agency's expectations, especially when it involves technological 
innovation--or service to rural America. I also understand that some 
state bureaucracies have diverted funds earmarked for E-911 to other 
state spending programs, which is troubling. But despite these 
challenges, we must press forward with this urgent national security 
priority.
    As a result of this hearing, I want to know what further steps, if 
any, are needed in this legislation to help stakeholders run the last 
mile of this marathon and give wireless consumers the safety and peace 
of mind that wireless E-911 promises. I also want to ensure that there 
is not an antagonistic relationship between wireless carriers and the 
FCC. Instead, there needs to be cooperation among all parties to ensure 
the proper final implementation of wireless E-911 while preserving the 
rich variety of competitors providing wireless services across the 
nation.
    Thank you Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 
      Prepared Statement of Hon. Charles W. ``Chip'' Pickering, a 
        Representative in Congress from the State of Mississippi

    First, I want to thank you, Mr. Chairman, for holding this hearing 
today on such an important safety and security issue affecting the 
wireless telecommunications industry and the general public. As we 
reflect on this second anniversary of one of the most devastating 
attacks ever on American soil, we should recognize the importance of 
wireless services on that fateful day and how such services aided in 
responding to the catastrophe. While Enhanced 911 (``E-911'') service 
was important to our country before the terrorist attacks of September 
11, 2001, the importance of this service is magnified exponentially in 
today's environment. According to the National Emergency Number 
Association, at the end of the 20th century, nearly 93% of the 
population of the United States was covered by some type of 911 
service, with 95% of that coverage constituting E-911 for wireline 
customers. While we have made substantial progress in implementing E-
911 service for landline facilities, access to E-911 for wireless 
customers is still in its infancy. Therefore, I applaud the Chairman 
and this subcommittee for once again addressing wireless E-911 
implementation and for considering the proposed legislation introduced 
by my colleagues here on the Subcommittee, Congressman John Shimkus and 
Congresswoman Anna Eshoo.
    The E-911 Implementation Act of 2003, H.R. 2898, would address some 
of the major hurdles faced by wireless carriers in implementing E-911 
service for its wireless customers. Because it is anticipated that by 
the year 2005 the majority of 911 calls will be from wireless callers, 
the implementation and feasibility of E-911 service for wireless 
callers is paramount. H.R. 2898 is a proper response to the hurdles 
that wireless carriers face, by establishing a national implementation 
and coordination office at the federal level; creating a grant program 
to assist state and local officials in implementation of Phase II of E-
911 service; providing a punishment for states diverting E-911 funds 
from E-911; and requiring the FCC to study its E-911 accuracy 
requirements, specifically with regard to problems faced in rural 
areas. This bill is a necessary component of an overarching strategy to 
properly implement E-911 throughout the country.
    My district is predominantly rural and served by small wireless 
carriers. These companies are very important to the wireless industry 
and to the rural customers which they serve, providing competitive 
pricing and technological innovation in an otherwise neglected segment 
of the country. It is imperative, both to the industry and to 
consumers, that we consider the needs of these small regional wireless 
providers and ensure they continue to be viable competitors in the 
marketplace. These small wireless carriers that choose to operate in 
rural areas, where costs are high and profit margins are thin, are 
struggling to implement E-911. Whether dealing with uncooperative 
vendors or attempting to meet almost impossible accuracy requirements, 
the problems faced by small, rural carriers are something which we must 
address legislatively before wireless E-911 can become a reality in the 
rural areas of the country. While there is currently a waiver process 
in place at the FCC, most small, rural carriers feel that the process 
is wholly inadequate, as it provides no specific guidance as to the 
criteria required to be granted a waiver and it contains no timeline in 
which the FCC is required to make a decision upon such an application. 
With such uncertainty faced by small, rural carriers--and all carriers 
for that matter--it is no wonder that most small, rural carriers find 
this regulatory process inadequate. Therefore, while this legislation 
does seems to address the accuracy problems faced by small, rural 
carriers, I feel that we should also confront other problems faced by 
wireless carriers and search for ways to ameliorate these obstacles so 
that small, rural wireless carriers can continue to provide quality 
service in these areas that otherwise would not be served, while also 
providing E-911 emergency service and all the safety benefits that that 
service entails to all Americans. While our goal in this hearing is to 
consider the benefits of wireless E-911, we must be careful to 
implement policies that are realistic and achievable. We must remember 
that wireless E-911 in rural areas is not possible without the 
existence of rural wireless carriers in the first place. Thank you 
again, Mr. Chairman, for holding today's hearing and I look forward to 
working with you and your staff on this issue.

                                 ______
                                 
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    Mr. Chairman, thank you for calling this hearing today. September 
11th is unfortunately an appropriate day to hold a hearing on this 
bill.
    September 11th was an eye-opener on many fronts. One of them was 
the weakness of our public safety communications systems. One of the 
cornerstones of that system is E911 services, especially the ability to 
pinpoint the location of a caller using a mobile phone who is involved 
in or a witness to an emergency situation.
    I commend Representatives Shimkus and Eshoo for introducing H.R. 
2898 so that we can put E911 deployment on the fast track. This 
legislation will greatly improve the coordination of E911 activities 
within and among states. It will also facilitate greater communications 
among the various stakeholders.
    There is one issue in particular that this bill addresses that is 
critical to speeding E911 deployment. Too many states have been raiding 
E911 funds for other governmental purposes. I can think of few things 
that are as irresponsible as diverting funds designated for E911 
deployment. Such an action is a fraud perpetuated on consumers, who pay 
fees purportedly for E911. And it may be costing lives by slowing E911 
deployment. Local governments will never be ready for E911 deployment 
if states continue to divert funds designated for such deployment.
    That is why I am delighted that this bill penalizes states that 
divert funds. Hopefully, this bill will demonstrate to states that are 
diverting funds that the federal government will hold them accountable 
for jeopardizing lives.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to a speedy markup and to the enactment of this bill.

    Mr. Upton. At this point we will be hearing from our 
witnesses. We thank you all for submitting your testimony early 
so that we had a chance to look at it last night. Your 
statements will be made part of the complete record, and we 
would like you to limit your remarks, opening statement now, 
your oral presentation, to no more than 5 minutes.
    We welcome the Honorable Tim Berry, the State Treasurer 
from the State of Indiana. All of us extend our prayers to your 
Governor, who is, we hope, recovering. Mr. John Muleta, the 
Bureau Chief, Wireless Telecommunications, from the FCC; Mr. 
Anthony Haynes, Executive Director of the Tennessee Emergency 
Communications Board; and Mr. Terry Addington, president and 
chief executive officer of First Cellular of Southern Illinois.
    At this point, we are prepared to listen to your statement. 
We will start with you, Mr. Berry. Thank you for being here 
this morning.

   STATEMENT OF TIM BERRY, STATE TREASURER, STATE OF INDIANA

    Mr. Berry. Thank you, Mr. Chairman and members of the 
committee. As Treasurer of the State of Indiana, the elected 
State Treasurer of Indiana, I also serve the role as chairman 
of Indiana's Wireless 911 Advisory Board, a board that is made 
up of both PSAP representatives as well as carrier 
representatives, and it is that board, it is my fellow members 
of NENA and APCO, that I am here with you as well, members of 
NENA and APCO both in Indiana and across the country.
    Today is a day that, as you have all said, a day that we 
honor the courage and the selflessness of emergency responders, 
particularly those who represent 911. September 11, 9/11, 911 
reminds us of the importance of the work of our first 
responders. And today, especially in this committee hearing, we 
talk about our first responders of--first responders, our 911 
leaders.
    As I said, as Treasurer I am the chairman of Indiana's 
Wireless 911 Advisory Board, a board that gives me oversight of 
Indiana's wireless 911 implementation, but also the opportunity 
to work with public safety officials, private sector leaders 
and others on a very, very important issue, for it was in a 
NENA/APCO member, Mr. Ken Lowden, who serves as communications 
director in Steuben County, Indiana, who, moments after my 
election back in 1988 as State Treasurer, brought me aside and 
said, I want to talk to you about wireless 911.
    Now, as State Treasurer you also might be wondering about 
the issues that States face, and as you have mentioned, many of 
you have mentioned already this morning where States have been 
diverting funds meant for 911 implementation across their 
States, diverting those funds to use to balance their State 
budgets, and that is an issue that concerns me greatly as a 
fiscal officer. It is an issue that concerns me greatly as a 
member of the 911 community, and it is an issue that I think 
needs to be directed and approached.
    In far too many cases our PSAPs are not ready to receive 
wireless 911 capable information because money that was 
intended to go to 911 services is being spent on over 
government needs that may or may not pertain to 911. Instead of 
paying to deploy 911, these funds are misappropriated, 
misallocated, or flat out diverted away there from their 
intended purpose long before a dime or even a nickel can be 
spent on helping a PSAP.
    Several States have begun a disturbing trend as Governors 
and legislators balance their books with funds collected for 
911 implementation. While I know the committee is keenly aware 
of these abuses and practices, allow me to illustrate a point 
of what happened recently in North Carolina, the home State of 
NENA president Richard Taylor. In the waning days of the 
General Assembly in North Carolina, they diverted or raided $58 
million of funds that were meant to deploy--assist PSAPs in 
deploying wireless 911. This is something that needs to stop. 
This is something that we need to make sure that we do not 
promote in the future.
    But I think it is also important that we remember who is 
diverting these funds and not penalize those that are not 
responsible for that. And by saying that, I mean let's not 
penalize our PSAPs who have no role in what the State 
legislators, what the Governors are doing. They have no 
control. They cannot stop them from doing that. Let's not 
penalize the PSAPs with grant moneys that were meant for them 
in those States where those moneys have been raided, but rather 
let's work to foster a relationship that penalizes those States 
who have not utilized the funds appropriately, but also rewards 
those communities, those PSAPs who are wanting to deploy 
technology.
    And in so doing we need to create innovative ways to foster 
relationships and to foster utilization of grant dollars. 911 
is not a one-size-fits-all scenario. As a result, many small, 
poor rural communities have fixed costs that they need for the 
development and deployment of 911 technology. As a result, they 
may need a higher grant ratio than a 50/50, whereas in other 
communities a lower grant relationship, percentage 
relationship, might be more appropriate.
    I thank you for the opportunity to testify before you 
today, and I look forward to your questions and moving forward 
on wireless 911 in the United States.
    [The prepared statement of Hon. Tim Berry follows:]

     Prepared Statement of Hon. Tim Berry, Indiana State Treasurer

    Mr. Chairman, members of the Committee, Congressman Upton, thank 
you very much for providing me with this opportunity to appear before 
you today. My name is Tim Berry, and I serve as the Treasurer for the 
State of Indiana.
    I'm honored to appear before the Subcommittee today. Especially 
today--a day that is set aside for reflection and remembrance of the 
tragedies and lives lost two years ago on this very date. It is a day 
to honor the courage and selflessness of all emergency responders, 
particularly those who represent 9-1-1. September 11, nine-eleven or 
simply nine-one-one, reminds us all of the importance of our work.
    Let us not dwell upon the infamy of the anniversary, but rather 
ever more dedicated to taking one of the many steps needed to improve 
our nation's ability to respond to all emergencies, starting with the 
first responders among first responders, our 9-1-1 leaders.
    As the state-elected Treasurer, I have the pleasure of serving as 
the Chair of Indiana's Wireless 9-1-1 Advisory Board, which gives me 
not only oversight of Indiana's wireless E9-1-1 implementation, but 
also the opportunity to work with public safety officials, private 
sector leaders and others on this very important issue.
    I'm here in part, to represent my colleagues in public safety: most 
notably those who are members of the National Emergency Number 
Association (NENA) and the Association of Public Safety Officials 
International (APCO), the two groups that have guided much of these 
discussions to date.
    [Attached to my testimony and of which I offer to the record with a 
full endorsement is NENA and APCO's joint position paper on E9-1-1 
legislation before Congress].
    I am a member of these organizations. NENA and APCO have been an 
invaluable resource and service to my efforts in Indiana, and they are 
why I'm here before you today. It was a NENA/APCO member, Mr. Ken 
Lowden of Steuben County, Indiana who emphatically pushed me to get 
involved, almost minutes after I was first elected in 1998.
    Initially responding to a legislative duty and constituent request, 
E9-1-1 has become one of my top priorities as an elected official, 
politician and parent.
    It is this priority that is guiding me in making Indiana a model 
state in E9-1-1 deployment, and nationally working for the needs of Ken 
Lowden and his many colleagues in Public Safety Answering Points 
(PSAPs) throughout our nation.
    My testimony, which is that of a state-elected official, is equally 
the story of the thousands of 9-1-1 leaders in this nation and their 
needs to help make 9-1-1 work like it should.
    In discussing the E9-1-1 Implementation Act of 2003, I will ask: 
how is this going to help Ken Lowden of Steuben County and his 
colleagues all across the nation--the thousands of PSAPs who are 
dedicated to one thing, saving lives.
E9-1-1 Fiscal Responsibility: End Abuse of 9-1-1 Monies
    In far too many circumstances our nation's PSAPs are not ready to 
receive wireless E9-1-1 capable information because money that is 
intended to go to E9-1-1 services is being spent on other government 
needs that may or may not pertain to 9-1-1. Instead of paying to deploy 
E9-1-1, these funds are misappropriated, mis-allocated and flat out 
diverted away from their intended purpose, long before a dime or even a 
nickel can be spent on helping a PSAP.
    Several states have begun a disturbing trend, as Governors and 
state legislatures, balance their books with funds collected for E9-1-1 
implementation. While I know the Committee is keenly aware of these 
abuses and practices, allow me to illustrate a point by sharing a 
recent example that occurred this past summer, in North Carolina, a 
state that is home to NENA's President, Richard Taylor.
    North Carolina, like many states during these lean economic years 
has found it difficult to balance the state's budget. Conversely, the 
state's Wireless 9-1-1 Fund has experienced a relative ``boom economy'' 
in the form of a steady stream of revenue from state 9-1-1 fees 
collected on phone bills for the deployment of E9-1-1. Given the number 
of wireless subscribers in North Carolina, the fund has accumulated a 
balance of nearly 58 million dollars. A somewhat anonymous program a 
few years back, this balance has not lasted long. Raiding the fund in 
previous years, the North Carolina state legislature became even more 
presumptuous during the last few days of this year's legislative 
session. Typical of most state legislatures at the end of a session the 
North Carolina Legislature was engaged in a heavy budget battle; 
striking a direct hit on 9-1-1.
    Late in the evening of June 30th, 2003, all 58 million dollars of 
the state's Wireless 9-1-1 Fund was erased with a stroke of a pen, in 
passing the balanced budget for the new fiscal year. This was done 
without consultation of the state's Wireless 9-1-1 Board, which is 
comprised of wireless carriers and PSAPs, much less any of the 9-1-1 
professionals in the state. The results of this action, were to 
discontinue funding to PSAPs for the next two years, virtually erasing 
the state's 9-1-1 program and the path to E9-1-1 progress.
    My friend, colleague, and president of NENA, Richard Taylor could 
do very little to stop the legislature. A state appointed employee, 
Richard serves at the pleasure of the Governor, and his hands were 
tied. The only hope was an eleventh hour amendment, pushed by the state 
members of NENA and APCO to offer a technical correction giving 
authority back to the Wireless 9-1-1 Board.
    The technical amendment was finally passed, but even today, the 
Board still must provide the requested money to the general fund.
    H.R. 2898, the ``E9-1-1 Implementation Act of 2003'' is a positive 
first step to change the behavior of states like North Carolina. Like 
my colleagues in NENA and APCO, I support the withholding of federal 
grant monies from states and political subdivisions that divert or 
misappropriate 9-1-1 monies from their intended purpose.
    As a state-elected official, former county official and 
particularly a fiscally conservative treasurer, I find the act of 
diverting E9-1-1 funds reprehensible and irresponsible. Not only is it 
careless accounting, its poor public policy, robbing public safety and 
our citizens from one of the most important functions of government; 
the ability to call for help.
    While I equally encourage advising Congress and the publishing of 
information regarding states that divert these funds, I draw caution to 
the revision of FCC regulations that might hinder the ability of a PSAP 
to request E9-1-1 implementation or challenge our ability to deploy 
more rapidly throughout the nation.
    Under the proposed legislation, Section 4 would inevitably penalize 
PSAPs, as it would relieve wireless carriers of their obligation to 
provide E9-1-1 if a state diverted 9-1-1 monies. Ultimately this would 
punish the wrong party, for something, as in the case of North 
Carolina, the PSAPs had no control over, the state legislature. The 
revision of the FCC regulation, doesn't help Richard Taylor of North 
Carolina or Ken Lowden of Indiana get money to deploy E9-1-1, it gives 
the wireless carrier another opportunity for delay.
    I respectfully request that Committee remove the section from 
consideration.

Federal Grant Monies for 9-1-1
    Consistent with the policy goals of the Wireless Public Safety Act 
of 2003 and the work of NENA and APCO before this Committee, I support 
and encourage the availability of federal grant monies for 9-1-1.
    The costs of maintaining and operating a 9-1-1 system are 
significant and necessary. Technical, operational and financial 
resources are required from both the public and private sector. 
Reliability, redundancy, innovations and challenges in modern 
communications are constantly re-defining 9-1-1 costs and economies of 
scale.
    Just this past June, a blue-ribbon task force of Nobel laureates, 
U.S. military leaders, and other experts called for a $10.4 billion 
dollar investment in 9-1-1 services over five years. The call for 
increased 9-1-1 funding was part of a homeland security budget analysis 
issued by the Independent Task Force on Emergency Responders, led by 
former Senator Warren Rudman and former White House terrorism and 
cyber-security chief Richard Clarke.
    NENA's Strategic Wireless Action Team (SWAT), in which I'm 
participating in, is producing similar large dollar amounts to improve 
our nation's 9-1-1 system.
    Unfortunately, it's hard for local communities, and in some cases, 
states, to keep up. Sometimes a one shot infusion of capital is needed 
to get the community over the hump, other times a long term systemic 
plan is required to ensure the most basic of service. The key is not to 
limit a grant program to just giving money to those in need, but rather 
to implement an investment strategy to reward success, cooperation, 
integration and interoperability within our nation's 9-1-1 system.
    To illustrate this point further, allow me to revisit my friend Ken 
Lowden, back in my home state of Indiana. As I stated before, Ken runs 
the PSAP in Steuben County located in northeast corner of our state. To 
the north of Ken, is Michigan, to the east of Ken is Ohio, to the west 
and south of his border are several rural Indiana counties. Steuben has 
a moderate to small population, with a large summer tourist crowd and a 
consistent stream of travelers on two of our nation's busiest 
Interstates: Interstate 69, going north and south and Interstate 80 
going east and west. In regard to 9-1-1, Ken and Steuben County are 
bona fide leaders.
    Under Ken's leadership, the state NENA chapter helped pass 
legislation to create Indiana's Wireless Enhanced 9-1-1 Advisory Board, 
on which Ken presently serves. This local leadership has given Ken the 
opportunity to lure carriers, vendors and emerging technologies to 
deploy in Steuben. A model community in APCO's Project Locate, Ken and 
Steuben County are in the ninetieth percentile when it comes to our 
nation's PSAPs. Yet a few miles down the road in Ohio, they have had 
difficulty in passing cost recovery legislation, up north in Michigan 
PSAPs have struggled with regulatory challenges, and some of Ken's 
neighbors in Indiana have yet to request Phase II. However, the public, 
and specifically wireless subscribers, are unaware of these 
shortcomings in our emergency communications network as they travel in 
the tri-state area; they do not know which community is safer and which 
is not.
    It's this region and Ken that come to mind when I think of federal 
grants for these purposes; not based strictly on need, but leadership 
and the willingness to work with all stakeholders to improve emergency 
communications.
    Our nation's 9-1-1 system needs an inclusive planning process, 
rewarding success and cooperation in PSAP readiness. The Ken Lowdens of 
9-1-1 should be encouraged and replicated. We need more planning, not 
just on the state level, but on the local level as well.
    How do you implement a 9-1-1 grant program that fosters leadership, 
instead of a handout from the federal government? How do you drive 9-1-
1 deployment and increase the awareness for integrated approaches? I 
believe the answer is twofold: support coordination and implement 
grants with match threshold that encourages diversity.
    Whether or not this coordination occurs on a state, local or 
regional level, the need is clear, coordination breeds success. 
Recognizing that the legal authority over 9-1-1 varies from state to 
state, we as a nation would be well served to encourage grants that 
support national standards and integration and include actual leaders 
of emergency response for PSAPs, 9-1-1 and emergency communications. We 
also should support a lowering of non-federal matches to maximize E9-1-
1 deployment and reward PSAP readiness, first adopters and pioneering 
technology. This should help us accelerate deployment in regions 
stymied by fiscal hardship, while simultaneously encouraging 21st 
century-technology thinking. Ultimately, this might require a 10/90 
non-federal to federal match in some regions and an 80/20 in others, 
with the principle that we support larger federal matches in specific 
cases and lower matches in others. And in a state like Indiana, where 
we have a large number of E9-1-1 deployments, these matches could be 
varied to speed up the process of PSAP readiness in the last remaining 
hold out regions.
    A grant program built around these fundamentals, coupled with a 
diverse set of match threshold requirements is likely yield more 
positive results. Done correctly, our nation is likely to have more Ken 
Lowdens when it comes to deploying modern emergency communications.
National Coordination: The 9-1-1 Priority
    Enhanced 9-1-1 is a national imperative, and we need to think of 9-
1-1 as part of our nation's frontline to emergency response and 
communications. Improving our nation's 9-1-1 system is long overdue. 
While some states and a few communities have had success in wireless 
E9-1-1 we are still a long way away from modern ubiquitous emergency 
communications that is needed in today's environment of mobile 
communications and national security.
    While I'm a strong advocate of state rights and leadership, I 
recognize the different roles and leadership structures within 
government. To date, the greatest burden of E9-1-1 has fallen on the 
Federal Communications Commission (FCC). As the chief regulatory body, 
the FCC has demonstrated a commitment to implement E9-1-1 to best of 
their expertise and charter; commissioning the Hatfield report, 
organizing a coordination initiative, supporting consumer awareness, 
and now planning for the involvement of the National Reliability and 
Interoperability Council (NRIC). With all due respect to the Commission 
and the wonderful work they do in leading our nation's communications 
policies, we all know that the FCC can't do it alone.
    The Administration recognized the challenges of the FCC and was 
able to engage the United States Department of Transportation (USDOT) 
through the Wireless Implementation Program, surveying state and county 
9-1-1 coordinators and providing national information on readiness of 
states, counties and PSAPs for wireless E9-1-1. The program has evolved 
over time and has brought the bully pulpit of Secretary Mineta's office 
into the campaign.
    As a state leader, I can attest firsthand to the need for federal 
guidance in coordination and planning. I can equally attest that 
despite the tireless efforts of the FCC and USDOT, more needs to be 
done.
    Consistent with the policy objectives of the Wireless Public Safety 
Act of 1999, I believe it is absolutely necessary for the federal 
government to begin coordinating 9-1-1 planning and support for the 
deployment of modern technologies.
    I support a national Coordination Office, to serve as a ``project 
manager'' for 9-1-1; to help set national expectations, standards and 
improved deployment timelines for E9-1-1 services. More than anything, 
as a project manager, the national office should help in the nationwide 
role out of services that have come to create national expectations for 
consumers. As a coordinating body within government, this office would 
help us better utilize our national resources in deploying 9-1-1 
technologies.
    Equally, I support the convening of an ``Emergency Communications 
Task Force'' as proposed by HR. 2898's counterpart in the Senate, 
S.1250. An Emergency Communications Task Force as outlined in the 
Senate bill recognizes the roles of various federal agencies, Federal 
Communications Commission, Department of Transportation, Department of 
Commerce, Department of Justice, Department of Homeland Security, as 
well as national organizations. As a task force, our nation's PSAPs, 
telecommunications providers and technology services could help in the 
future planning for all 9-1-1 services. This task force would support 
the NENA mantra: 9-1-1 capabilities at anytime, any where from any 
device.

Consumer Expectations: Educating the Public and Review of Accuracy 
        Requirements
    When I first got involved in E9-1-1, I was amazed at the lack of 
public information available about this life-saving service. And I had 
been a politician long enough to know, that if we were going to make a 
difference in Indiana, we would have to start educating the public. We 
started with a few public service announcements on the radio for the 
fans of Indianapolis 500, and now have blossomed into a comprehensive 
website, that provides county by county, carrier by carrier information 
of all E9-1-1 deployments in our state. Known simply as 
``911COVERAGE.ORG'', this website has generated consumer demand and 
knowledge on available E9-1-1 services in Indiana. Consumers now have 
the E9-1-1 choice and information in the purchasing wireless services. 
It's making a difference in our state deployments.
    In supporting consumers, I feel it's equally important we provide 
the same access for all consumers. I can not consciously accept a lower 
standard for rural America, when it comes to E9-1-1.
    Section 5 of HR. 2898 would ask the FCC to review rural accuracy 
requirements for rural carriers and I believe this to be a mistake. 
While I'm sympathetic to the challenges of rural E9-1-1 deployments, 
I'm troubled by the initial requests and excuses by rural carriers to 
repeal progress. We have had success in Indiana with our rural carriers 
and that success has been built on the premises of partnership, with us 
emphasizing what you can do, and the opportunity to do it, not what, 
can not be achieved.

Closing Comments
    As the state-elected treasurer of Indiana, I am tasked with being 
the fiscal officer for the state's monies, which include 9-1-1. At the 
same time, I've dedicated my professional life to serve the people. For 
me, fiscal responsibility and the opportunity to serve the public, at 
perhaps the most desperate hour, is an honor I take quite seriously.
    While I don't have the same tenure and background in 9-1-1 as many 
of my colleagues in public safety, I do have the same passion. I know 
what's at stake, I know the sacrifices that must be made, I know the 
outcomes if we don't succeed.
    Unfortunately, far too often I share a different perspective than 
my fellow state elected officials on this issue. This needs to change.
    I ask the committee to review my comments on 9-1-1, with an eye on 
improving the proposed legislation, but equally on improving the 
relationship with all state-elected officials. For this, I ask the 
Members of the Committee to meet with your respective state colleagues 
next time you're home and encourage responsible fiscal guidance when it 
comes to 9-1-1 and emergency communications.
    9-1-1 saves lives. It's an essential part of our nation's homeland 
defense, our safety and security, our neighborhoods and towns, our 
families and our future.
    Again, I thank the Committee for the opportunity to testify today 
and look forward to the work before us.

    Mr. Upton. Thank you very much.
    Mr. Muleta, welcome back.

      STATEMENT OF JOHN B. MULETA, BUREAU CHIEF, WIRELESS 
     TELECOMMUNICATIONS, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Muleta. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and members of the subcommittee. I do welcome this 
opportunity to appear before you on behalf of FCC to testify on 
the deployment of E-911 wireless services on this second 
anniversary of the tragic day that imprinted 911 in the 
Nation's consciousness and changed its meaning forever.
    On that day there was no congressional hearing about the 
rollout of E-911, but there was testimony of a different sort 
about the importance of wireless telecommunications to our 
Nation.
    Aboard Flight 93, the passengers chose to die a heroes' 
death, fighting to protect their fellow Americans after hearing 
on their cell phones about what was going to happen. Civilians 
trapped inside the World Trade Center spoke their last words to 
their loved ones on cell phones that were their only connection 
to the outside world. Since that day, since that attack on our 
homeland, there has been a wakeup to many to look more deeply 
at the vital roll that telecommunications plays in our Nation's 
response to emergencies.
    But E-911 wireless services are inseparably linked to the 
FCC's work on other public safety issues, including wireline 
infrastructure, first responder and public safety access to 
spectrum interoperability and network security.
    Our work is part of a larger picture that involves many 
Federal agencies, State governments, and every local 
jurisdiction in the country. There is an urgent need to 
recognize this interlocking of interests to foster cooperation 
and communication from top down as well as from bottom up, 
across agencies, between individuals and among public and 
private interests and the greater interests of the American 
people.
    Providing telecommunications service to meet our Nation's 
public safety emergency response and homeland security needs is 
not the job of the FCC alone, and/or of any one Federal agency. 
Moreover, it will require public and private partnerships to do 
the job right. Only when all of us work together will we be 
able to bring about the full deployment of enhanced wireless 
services such as E-911.
    As this subcommittee has recognized, the full deployment of 
enhanced 911 wireless services will require leadership and 
vision of Congress. Indeed this subcommittee, through this and 
past hearings and its legislative initiatives, has been 
indispensable in advancing E-911. I especially commend you as 
well as Representatives Shimkus and Eshoo and other members of 
the Congressional E-911 Caucus for their leadership and vision 
in this crucial area.
    The leadership of this Congress will be critical to meeting 
the E-911 challenges facing us to complete this vital link 
between the first responders and the civilian population which 
is an essential part of our homeland security efforts.
    Since I last spoke to the subcommittee, the pace of E-911 
has quickened to bring wireless location technology to the 
Americans where they live and travel. According to our August 
1, 2003, reports, phase II deployment has increased by 50 
percent over the prior quarter. The six nationwide carriers 
have brought online over 65 percent of their enabled markets in 
the last 6 months.
    Every nationwide carrier using handset-based location 
technology is offering customers a location-capable handset. 
Both Sprint and Verizon offer their customers 10 or more 
locational-capable handsets. Sprint alone has sold over 11.6 
million such phones. But this is just the beginning. We will 
not rest until all consumers of wireless services are assured 
that 911 has been deployed and the technology is available, and 
that this technology reaches every PSAP and every urban and 
suburban community across the Nation.
    As an institutional matter, we have learned that progress 
sometimes requires the use of an enforcement stick. The 
Commission has not hesitated to use its enforcement when 
stakeholders are delaying deployment in violation of law. Each 
major carrier is now subject to binding deployment schedules 
with automatic penalties if they fail to comply again. Since I 
last testified, both Cingular Wireless and T-Mobile have 
entered into consent decrees that include firm timeliness for 
implementation.
    At the last hearing we discussed extensively Dale 
Hatfield's report to the Commission. One of the key issues that 
Dale's report identified was the lack of coordination and 
information flow between and among relevant stakeholders. In 
response to this, we have started the FCC's E-911 Coordination 
Initiative.
    FCC's second meeting is targeted to take place on October 
29 and 30. At that session we will sound the call to action to 
our colleagues at the State level. There, for the first time, 
we will convene E-911 designees for the State governments. We 
also plan to provide them with resources to provide leadership 
and coordination in the E-911 deployment efforts in their 
States.
    The second coordination initiative will also look at 
accuracy challenges and about additional public education 
efforts. That Hatfield reports discussion of special and 
technical and economic challenges facing rural carriers and the 
issues raised with respect to rural carriers.
    In the rural session of our first initiative, we have 
continued to focus on E-911 deployment in the rural settings, 
particularly among smaller wireless carriers, such as the one 
represented by Mr. Addington.
    These issues are being addressed in the context of a 
broader Commissionwide effort to examine the multiple wireless 
issues affecting rural carriers, consumers and other rural 
stakeholders.
    With regard to rural E-911 deployment issues, we have 
worked with all of the stakeholders to ensure that information 
is shared between and among the various interests involved. As 
you know, we have before us various petitions for relief from 
certain implementation benchmarks in rural areas. The 
Commission will decide these issues as quickly as possible 
consistent with determining an equitable balance. That is very 
important, an equitable balance between the public safety 
community's needs and the technical and commercial hurdles that 
rural carriers face in deploying location technologies that 
comply with the Commission's time and accuracy requirements. We 
are encouraging all stakeholders to work with us and with each 
other to find the best path to full compliance with the 
Commission's rules.
    In addition to the coordination initiative the Chairman has 
recently announced that, as Mr. Hatfield recommended, a set of 
technical activities to figure out more information about how 
we can improve these standards that we have set. Measuring and 
improving the accuracy of E-911 location information will be a 
key priority, but we will do that in the context of the broader 
framework that we are facing, such as--and we will do it in the 
context of the Network Reliability and Interoperability 
Council, NRIC, which will continue to focus on homeland 
security issues under a new charter. We will begin laying the 
foundation of these inquiries at the second coordination 
initiative in October. In January we will also devote the FCC's 
Technical Advisory Committee meeting to 911 technical issues. 
We are pleased to announce that Dale will again help us with 
these issues.
    We have identified accuracy measurement as an issue that 
must be effectively resolved in all environments, whether 
rural, urban, or some other unusual environment, so that all of 
our consumers are equitably treated, and all consumers are 
assured of effective location technology in their service area 
and when they travel outside of it.
    One area of investigation is the method by which the 
Commission will measure carrier compliance with our accuracy 
rules. The Emergency Services Interconnection Forum has 
established a working group to examine methods for testing 
location accuracy. The working group's goal is to develop a set 
of minimum and practical requirements that will ensure that 
individual test methodologies will provide consistent, valid 
and reproducible results in the variety of environments that 
wireless carriers face.
    Now, in addition to all of these technical issues, we are 
also focusing, under the direction of the Chairman, to make 
sure that the public has a central role in making sure that E-
911 is rolled out to their individual communities. Consumers 
need to ask carriers, do you provide E-911 phase II capability? 
How accurate is E-911 capability in my handset, and what is 
your deployment schedule in my area?
    Consumers also need to ask whether their State and local 
government public safety answering points are phase-II-capable. 
Again, if the answer is no, we all need to ask why not. This is 
a national priority, one that deserves a national dialog at all 
levels about the responsibilities of each stakeholder in making 
it work.
    We are, at the Commission, very committed to the nationwide 
deployment of E-911, both through outreach, education and 
implementation. The Chairman and the fellow Commissioners will 
be leading this effort to ensure that consumers have reasonable 
expectations about E-911 and can make informed choices about 
their cell phone service.
    I would like to also just close by saying that any effort 
at a national level, on a coordinated basis, especially at the 
congressional level, that addressees all of these issues that I 
have specified in my testimony would be of a great boon to the 
public and also to the FCC in accomplishing its mission.
    With that I would like to close and again thank you for 
your leadership and the leadership of the other members in 
helping roll out E-911 services to the public. Thank you, sir, 
for the time.
    [The prepared statement of John B. Muleta follows:]

         Prepared Statement of John B. Muleta, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission

    Good morning, Mr. Chairman and Members of the Subcommittee. I 
welcome this opportunity to appear before you on behalf of the Federal 
Communications Commission (FCC) to testify on the deployment of 
Enhanced 911 (E911) wireless services, on this, the second anniversary 
of that tragic day that imprinted 9-11 in the nation's consciousness 
and changed its meaning forever.
    It was exactly two years ago today that Tom Sugrue, then Chief of 
the Wireless Bureau, was scheduled to testify before this very 
subcommittee on the state of E911 deployment. FCC staff, preparing for 
the hearing, saw the smoke rise from the Pentagon from the window of 
the FCC building as they listened to news reports about the attacks on 
the twin towers. There was no Congressional hearing on that day about 
the roll out of wireless E911. But there was testimony of a different 
kind about the importance of wireless telecommunications to our nation.
    Aboard Flight 93, passengers, communicating by cell phone, learned 
what the hijackers had in store for them and chose to die a hero's 
death fighting to protect their fellow Americans. Civilians trapped 
inside the World Trade Center spoke their last words to loved ones on 
cell phones that were their only connection to the outside world.

                            I. INTRODUCTION

    The September 11, 2001 attacks on our homeland were a wake-up call 
to many to look more searchingly at issues of homeland security, and, 
in particular, at the vital role that telecommunications plays in our 
nation's response to emergencies. Implementation of Enhanced 911 for 
wireless communications devices is central to that response. But E911 
wireless services are inseparably linked to the FCC's work on other 
public safety issues, including wireline infrastructure, first 
responder and public safety access to spectrum, interoperability and 
network security.
    Before and since September 11th, the Commission has developed 
policies to secure our nation's telecommunications infrastructure and 
network reliability, to create analogous emergency location 
capabilities for wireline and wireless telecommunication services, to 
balance the needs of the public safety community and the private sector 
for access to spectrum. These are all part of our mission to serve the 
public interest by developing and implementing communications policies 
to meet the needs of first responders and of our civilian population. 
Our work is part of a larger picture that involves many Federal 
agencies, State governments, and every local jurisdiction. Enhanced 911 
wireless services are an essential part of the larger, interconnected 
telecommunications infrastructure that supports homeland security, 
public safety, and citizen activated emergency response capabilities.
    There is an urgent need to recognize this interlocking of 
interests, to foster cooperation and coordination from the top down and 
the bottom up, across agencies, between individuals, and among public 
and private interests, in the greater interest of the public good. 
Providing telecommunications services to meet our nation's public 
safety, emergency response, and homeland security needs is not the job 
of the FCC alone or of any one Federal agency. It involves cooperation 
and coordination among many Federal, State and local authorities. 
Moreover, many public and private partnerships will be needed. Only 
when all of us work together will we be able to bring about the full 
deployment of enhanced wireless services in the service of the nation's 
homeland security. Chairman Powell called for a new ``Era of 
Cooperation'' on E911 at the FCC's first E911 Coordination Initiative 
meeting in April. If all stakeholders heed the Chairman's call to 
action, together we can build this era of cooperation into a ``New Era 
of Accomplishment'' for enhanced wireless telecommunications services 
in every region of the United States.
    As this Subcommittee has recognized, the era of accomplishment in 
which we will achieve the full deployment of enhanced 911 wireless 
services will require the leadership and vision of the Congress. 
Indeed, this Subcommittee, through this and its past hearings and 
exploration of legislative initiatives, has been indispensable in 
advancing E911. I especially commend Representatives Shimkus and Eshoo 
and the other members of the Congressional E911 Caucus for their 
leadership and vision in this crucial area. This hearing is an 
important opportunity to work on furthering the era of cooperation with 
regard to one of the most critical public safety matters of today and 
tomorrow. The leadership of this Congress will be critical to meeting 
the E911 challenges facing us, to complete this vital link between 
first responders and the civilian population, which is an essential 
part of our homeland security efforts.

                  II. NEW DEVELOPMENTS AND CHALLENGES

    The substantial progress that we have made since I spoke to this 
subcommittee in June is the best demonstration of how the pace of E911 
deployment has quickened since the Chairman called for cooperation 
between stakeholders in April. The data support our belief that our 
efforts are starting to produce tangible results. In partnership with 
all the stakeholders--we are making substantial progress in bringing 
wireless location technology to the American people in the regions in 
which they live and to which they travel.
Deployment Statistics
 According to the August 1, 2003 Reports, Phase II information is now 
        being provided by at least one wireless carrier in 
        approximately 480 markets to more than 1200 PSAPs, an increase 
        of 50% over the prior quarter.
 For the six nationwide carriers, over 65% of their enabled markets 
        have come on line in the past six months.
 Every nationwide carrier using a handset-based approach is offering 
        at least one compliant handset. Both Sprint and Verizon offer 
        their customers at least 10 location-capable handset models. 
        Sprint alone has sold over 11.6 million such phones.
 According to the NENA's statistics, 10% of PSAPs--643 of 6,121 
        PSAPs--already have Phase II service, a jump from 299 between 
        February and May of this year, with the numbers steadily 
        growing as carriers and PSAPs gain expertise.
 And right here in our own neighborhood, in Alexandria, Virginia, E911 
        Phase II service has become a reality. Chairman Powell saw this 
        technology working first hand at an E911 Public Safety 
        Answering Point (PSAP) call center in Alexandria, Virginia. The 
        Chairman spoke with great enthusiasm about the tremendous job 
        Deputy Chief of Police Baker, Lt. Pellegrino, and the center 
        supervisor, Marietta Robinson, did demonstrating how the E911 
        capabilities functioned to locate callers.
    So the bottom line is, E911 is working right here in the Washington 
area. But this is just the beginning. We will not rest until all 
consumers of wireless services are assured that their carrier has 
deployed E911 location technology and that this technology reaches 
every PSAP, not just in the Washington, D.C. area, but in every urban, 
suburban and rural community across the Nation.

Remaining Challenges: FCC Actions and Initiatives to Meet Them
    It is clear today that E911 technology works--and can save lives. 
It is, unfortunately, also clear that when funds earmarked for the 
deployment of E911 are diverted to other uses because of budgetary 
pressures or other causes--lives can be lost. Thus, much more remains 
to be accomplished.

Experience is the Best Teacher
    I have learned first-hand that when location technology is not 
available in an emergency, rescue is delayed. I spent several hours 
stranded in a gondola in Colorado last month, waiting for help to 
arrive, unable to tell the PSAP that responded to my 911 wireless call 
my location on the mountainside as strong winds gusted around me. I am 
happy to say that the competence of the local public safety responders 
brought help quickly. Luckily, in this instance, I was only 
inconvenienced.

Enforcement Actions as Consequences of Non-Compliance
    As an institutional matter, we have learned that our progress 
requires the use of an occasional stick. The Commission has not 
hesitated to use its enforcement power when wireless carriers are not 
justified in delayed deployment. Within the past fifteen months, we 
have taken a number of actions where carriers have failed to comply, 
including entering into consent decrees with multiple national carriers 
who did not adhere to their deployment schedules. In addition to 
substantial fines, each carrier is now subject to binding deployment 
schedules with automatic penalties if they fail to comply again.
    To recap enforcement actions described in my previous testimony:

 The Commission entered into consent decrees with AT&T Wireless (June 
        2002) and Cingular Wireless (May 2002) regarding deployment of 
        E911 over their Time-Division Multiple Access (TDMA) Networks, 
        notwithstanding the fact that both carriers plan to phase out 
        much of their TDMA networks as they transition to the Global 
        System for Mobile Communications (GSM) standard. These consent 
        decrees require AT&T Wireless and Cingular Wireless each to 
        make a $100,000 voluntary contribution to the U.S. Treasury, to 
        deploy E911 Phase II technology at their TDMA cell sites, and 
        to provide Phase II service in response to PSAP requests by 
        specified benchmark dates. The consent decrees also require the 
        carriers to make automatic penalty payments for failure to 
        comply with deployment benchmarks and to submit periodic 
        reports on the status of their compliance efforts. Both 
        carriers have met their benchmarks to date: AT&T Wireless has 
        deployed Phase II technology to over 2,000 cell sites, with 
        nearly 1,200 of those sites currently providing Phase II 
        service, and Cingular has deployed Phase II technology at over 
        2,400 cell sites, with Phase II operational in nearly 1,700 of 
        those sites.
 After issuing a Notice of Apparent Liability against AT&T Wireless 
        for apparent E911 violations concerning its GSM network, the 
        Commission and AT&T Wireless entered into a consent decree in 
        October 2002 to address these apparent violations. This decree 
        requires AT&T Wireless to make a $2 million voluntary 
        contribution to the U.S. Treasury, to deploy E911 Phase II 
        technology at its GSM cell sites and provide Phase II service 
        in response to PSAP requests by specified benchmark dates. The 
        consent decree also requires AT&T to make automatic penalty 
        payments for failure to comply with deployment benchmarks and 
        to submit periodic reports on the status of its compliance 
        efforts. AT&T Wireless has met its benchmarks to date, 
        reporting that it has deployed Phase II technology to 2,000 
        cell sites on its GSM network.

Enforcement Actions Since June Testimony
 On June 12th, the Commission adopted an Order approving a consent 
        decree resolving possible violations of the enhanced 911 (E911) 
        Phase II rules by Cingular Wireless LLC (Cingular Wireless). As 
        part of the consent decree, Cingular Wireless has agreed to 
        make a voluntary contribution in the amount of 675,000 to the 
        U.S. Treasury.
 Cingular Wireless has also committed to a timeline for deployment of 
        its network-based location technology within its Global System 
        for Mobile Communications network (GSM network) and to make 
        automatic payments to the U.S. Treasury should it fail to meet 
        the deployment benchmarks set forth in the consent decree. 
        Cingular Wireless has also agreed to submit Quarterly Reports 
        to the Commission on its progress and compliance with the terms 
        and conditions of the consent decree and the E911 Phase II 
        rules.
 In July, the Commission adopted an Order approving a consent decree 
        resolving possible violations of the enhanced 911 (E911) Phase 
        II rules by T-Mobile USA, Inc. (T-Mobile). As part of the 
        consent decree, T-Mobile has agreed to make a voluntary 
        contribution in the amount of $1.1 million to the U.S. 
        Treasury.
 In addition, T-Mobile has committed to a timeline for deployment of 
        its network-based location technology within its Global System 
        for Mobile Communications network and to make automatic 
        payments to the U.S. Treasury should it fail to meet the 
        deployment benchmarks set forth in the consent decree. T-Mobile 
        has also agreed to submit Quarterly Reports to the Commission 
        on its progress and compliance with the terms and conditions of 
        the consent decree and the E911 Phase II rules.

The Hatfield Report: FCC Implementation of Recommendations
    We have taken further steps to implement the recommendations made 
by Dale Hatfield <SUP>1</SUP> with regard to the technical 
implementation issues and challenges associated with E911. In many 
ways, the ``Hatfield Report'' has become our guidebook in working 
through many of these issues. Some of the major issues identified in 
the Hatfield Report include:

    \1\ Mr. Hatfield is currently an independent consultant and Adjunct 
Professor in the Department of Interdisciplinary Telecommunications at 
the University of Colorado at Boulder. Between December 2000 and April 
2002, Mr. Hatfield served as Chair of the Department. Previously, Mr. 
Hatfield was the Chief of the Office of Engineering and Technology at 
the Commission, and immediately prior to that, he served as the Chief 
Technologist at the Agency.
---------------------------------------------------------------------------
 Wireless carrier implementation issues, such as particular technical 
        and economic challenges in rural areas.
 ILEC cost recovery and technical issues.
 Cost recovery and PSAP funding issues.
 Ongoing need for PSAP education, assistance, and outreach.
 Lack of comprehensive stakeholder coordination.

Commission Implementation of Hatfield Recommendations through 
        Rulemaking and other Regulatory Action
 In reviewing the Hatfield Report, we identified some regulatory 
        ambiguities and barriers on the FCC's side of the ledger. To 
        address these issues, the Commission recently:
 Clarified PSAP readiness issues and established a certification 
        process.
 Provided guidance on cost recovery demarcation issues.
 Instituted a rulemaking on how the 911 rules should apply to 
        technologies such as Mobile Satellite Service, telematics 
        services, and emerging voice services and devices.
 Bureau staff also worked on methods to reduce the number of 
        unintentional or harassing wireless 911 calls, a problem that 
        had been of growing concern to public safety organizations 
        because such calls divert scarce PSAP resources. Even without 
        the pressures of such calls, a PSAP's resources may be 
        challenged by the cuts in funds from hard-pressed state and 
        local budgets, an ever increasing number of wireless calls, the 
        demands of mastering the new technologies required to implement 
        enhanced 911 wireless services, and the need to find funding 
        and technical know-how in order to upgrade equipment so that 
        the PSAP is ready to handle location information from multiple 
        carriers using different location technologies.

Implementation of Hatfield Recommendation for Greater Stakeholder 
        Coordination
    One of the key issues that the Hatfield Report identified was the 
lack of coordination and information flow between and among relevant 
stakeholders. In response to this problem, in April, the Chairman 
launched the FCC's E911 Coordination Initiative.

The First Meeting of the E911 Coordination Initiative
    The first meeting of the Initiative brought together 
representatives from the federal government, the public safety 
community, wireless carriers, Local Exchange Carriers (LECs) and other 
interested stakeholders to address ongoing implementation issues such 
as Public Safety Answering Point (PSAP) funding, wireless carrier 
implementation and prioritization, issues relating to LECs, and the 
challenges faced by rural carriers.

The Second Meeting of the E911 Coordination Initiative
    The FCC's second meeting of the E911 Coordination Initiative will 
take place on October 29 and 30.
    At that session, we will sound the call to action to our colleagues 
at the state level. There--for the first time--we will convene the E911 
designees of each of the State Governors and U.S. territories. These 
leaders will provide a key interface for E911 deployment issues in the 
states and important points of contact for the vital public education 
efforts that are essential to successful E911 deployment. We plan to 
provide resources to Governors' State 911 designees to help them 
provide leadership and coordinate E911 deployment efforts in their 
states. We appreciate the work of our partners at the National 
Governors' Association who have been so integral to this unprecedented 
effort and to the staff of the Consumer and Intergovernmental Affairs 
Bureau of the Commission who have worked hard with them on this effort.
    Central to this task will be building support for the idea that 
state funds earmarked for E911 deployment should be used for E911 
deployment. Consumers have an expectation that fees appearing on their 
bills for E911 will be used to further the deployment of these life-
saving technologies, and we must ensure that those expectations are 
honored.
    The Second Coordination Initiative will also look at current 
deployment issues, accuracy challenges, and additional public education 
efforts.

Rural Deployment Challenges Identified in the Hatfield Report
    Following up on the Hatfield Report's discussion of special 
technical and economic challenges facing rural carriers, and the issues 
raised with respect to rural carriers in the rural session of the First 
Coordination Initiative, we have continued to focus on wireless E911 
deployment issues in rural settings, particularly among smaller 
wireless carriers. These issues are being addressed in the context of a 
broader bureau-wide effort to examine the multiple wireless issues 
affecting rural carriers, consumers, and other rural stakeholders. With 
regard to the rural E911 deployment issues, we have worked with all 
stakeholders to ensure that information is shared between and among the 
various interests involved. As you know, we have before us various 
petitions for relief from certain implementation benchmarks in rural 
areas. The Commission will decide these issues as quickly as possible, 
consistent with determining an equitable balance between the public 
safety community's needs and the technical and commercial hurdles that 
rural carriers face in deploying location technologies that comply with 
the Commission's time and accuracy requirements.
    We are also taking appropriate steps to ease these burdens wherever 
possible. The recent memorandum of understanding between the Wireless 
Telecommunications Bureau and the Rural Utilities Services of the 
Department of Agriculture should help rural carriers with one of their 
biggest challenges--funding for necessary infrastructure upgrades 
necessary for Phase II deployment.

Addressing the Infrastructure and Standards Issues Identified in the 
        Hatfield Report

E911 Subcommittee to the NRIC
    In addition to the Coordination Initiative, the Chairman has 
recently announced that, as Dale Hatfield recommended in his report, 
the Commission is going to establish a technical group to focus on 911 
network architecture and technical standards issues. Measuring and 
improving the accuracy of E911 location information will be a key 
priority. This group will be a subcommittee of the Network Reliability 
and Interoperability Council (NRIC), which will continue to focus on 
homeland security issues under a new charter. We will begin laying the 
foundation for these inquiries at the Second Coordination Initiative in 
October. In January, we will devote the FCC's Technical Advisory 
Committee meeting to 911 technical issues. I am also pleased to 
announce that Dale Hatfield has agreed to assist us in all of these 
efforts.

Accuracy Issues
    We have identified accuracy measurement as an issue that must be 
effectively resolved in all environments--rural, urban, or some special 
situation such as a coastal environment, so that all are equitably 
treated and all consumers are assured of effective location technology 
in their service area or when they travel outside it. One area of 
investigation is the method by which the Commission will measure 
carrier compliance with our accuracy rules. The Emergency Services 
Interconnection Forum (ESIF) has established a Working Group to examine 
methods for testing location accuracy. The working group's goal is to 
develop a set of minimum, practical requirements, that will ensure that 
individual test methodologies provide consistent, valid, and 
reproducible results in a variety of environments. The Working Group 
plans to send its recommendations to the ESIF for review by the full 
body by the end of November. The Commission intends to monitor ESIF's 
progress as this effort goes forward and to assess their efforts in our 
future compliance work. This issue will also be a focus of discussion 
at the upcoming Coordination Initiative.

Chairman Powell's Consumer Outreach Initiative
    Finally the public has a central role to play in making sure that 
E911 is rolled out in their communities. It is the job of all of us who 
care deeply about E911 deployment to make sure that when consumers are 
at the kiosk at the mall, they don't just ask about price, and how to 
download the latest tune from Fifty Cent as a ring tone. They also need 
to ask carriers:

 ``Do you provide E911 Phase II capability?''
 ``How accurate is the E911 capability in this handset?''
 ``What is your deployment schedule in my area?''
 Wireless is a highly competitive market, and that enables every 
        consumer including you and me to vote with our respective 
        checkbooks. Moreover carriers that have invested substantial 
        resources in deployment schedules that are faster than their 
        rivals should receive the benefits of that investment. 
        Consumers should understand that not all carriers are created 
        E911 equal--and we have a right to know. Our Consumer and 
        Government Affairs Bureau recently issued a consumer advisory 
        to highlight for consumers what questions they should ask when 
        considering wireless service.
    Consumers also need to ask whether their state and local government 
public safety answering points are Phase II capable. Again, if the 
answer is ``no'' we all need to ask ``why not?'' I urge the Congress, 
the public safety community, and government agencies to enlist 
consumers as an ally in ensuring that E911 deployment is properly 
funded and tended to in the political process at all levels. This is a 
national priority--that deserves a national dialogue about the 
responsibilities of each stakeholder in making this work.
    The Commission will remain committed to nationwide Wireless E911 
outreach and education. The FCC will work closely with the Governors' 
911 designees, our Intergovernmental Advisory Committee, public safety 
organizations, and to enhance our role as an information clearinghouse. 
The Chairman and his fellow Commissioners will be leading this effort 
to ensure that consumers have reasonable expectations about E911 and 
can make informed choices about their cell phone service.

                            III. CONCLUSION

    To summarize, the Commission is working formally and informally on 
the three ``C's that we believe are essential to solve E911 deployment: 
coordination, cooperation, and communication:

 Coordination: We have learned that states that have the strongest 
        coordination of E911 issues, have the greatest deployment 
        success. To foster coordination between the Commission and the 
        States, we have identified each Governor's E911 representative 
        and will be working with them on a number of leadership 
        initiatives.
 Cooperation: We have learned that where interests find ways to work 
        cooperatively, even in a competitive environment, problems can 
        be minimized. We are therefore trying to develop cooperation 
        between carriers, vendors, and LECs to spur deployment, 
        minimize time delays and maximize economic efficiency.
 Communication: We have learned that when rural carriers communicate 
        early and often with their local PSAPs, they have fewer 
        problems with coordination and communication. We are therefore 
        requiring that any carrier seeking a waiver communicate with 
        the local PSAPs which are affected by the waiver, and discuss 
        not only what the problems are, but their solutions, so that 
        together they can work on a sure path to full compliance.
 There are several other important ``c'' concepts, such as consumer 
        awareness and cost recovery. We believe that the consumer can 
        be a strong advocate for deployment, both with carriers and 
        with state and local government. Strong State E911 coordinators 
        and strong consumer interest have been highly successful in 
        improving the cost recovery picture for carriers and ensuring 
        that state funds are not diverted to other purposes.
    The full deployment of E911 is the work of many hands. The 
Commission is only one of many organizations entrusted with a 
leadership role. The collective progress has been driven by the 
leadership of many individuals and organizations doing their part to 
advance E911. First the Congressional E911 Caucus under its superb 
leadership has done an extraordinary job heading this effort on Capitol 
Hill. Public Safety leadership organizations have also played an 
important and creative leadership role. Members of APCO's Project 
Locate have worked tirelessly to offer PSAPs assistance with filing 
requests for Phase II service and to open the lines of communication 
between PSAPs and wireless carriers. Similarly, NENA's SWAT effort has 
helped immeasurably in removing roadblocks to deployment. The tireless 
efforts of these two public safety organizations are models of 
dedicated service in the public interest. I must also mention ESIF's 
E911 work, and the Department of Transportation's Wireless E911 
Steering Council, which have also brought national leadership and 
attention to help accelerate deployment. The ESIF and the DOT-NENA 
partnership are examples of how imaginative partnerships can provide 
the impetus to progress and innovation.
    Working together we can make E911 deployment a reality across this 
nation. We will not stop until we have rolled out location capability 
in every corner of our nation. Together, we will keep the roll-out 
moving towards that goal.
    I would like to again thank the Subcommittee for this opportunity 
to provide information on wireless E911. I look forward to hearing your 
views and answering any questions you may have.

    Mr. Upton. Mr. Haynes.

 STATEMENT OF ANTHONY C. HAYNES, EXECUTIVE DIRECTOR, TENNESSEE 
  EMERGENCY COMMUNICATIONS BOARD, DEPARTMENT OF COMMERCE AND 
                           INSURANCE

    Mr. Haynes. Good morning, Mr. Chairman and members of the 
committee. I am appearing here today on behalf of the Tennessee 
Emergency Communications Board. I am also a member of the 
National Emergency Number Association, the ComCARE Alliance, 
and the National Association of State 911 Administrators. But, 
again, my testimony this morning is on behalf of the Tennessee 
State Board.
    I applaud your leadership, Mr. Chairman, as well as your 
colleagues' and that of staff in crafting H.R. 2898. I also 
wish to extend a sincere thanks to Members and the cochairs of 
the Congressional E-911 Caucus for your fine and tireless work 
here. I also want to thank our own Congressman, Bart Gordon, 
for his request to not only have the views of our Board 
represented in the record here today, but also for his 
continued interest in our State's E-911 deployment progress.
    On behalf of the Board, I strongly support the overall 
intent of H.R. 2898. If enacted with some minor modifications, 
our communities will be more secure, our streets safer, our 
property losses lowered, and most importantly lives will be 
saved. I am pleased to report that in the State of Tennessee, 
we have made substantial progresses in phase II implementation.
    And in my written statement today submitted for the record, 
I made four points regarding the deployment of phase II 911. 
First, it can be done. Whether it is PSAP readiness or career 
deployment, it does take a commitment. Second, many approaches 
and resources that enabled the successes that we enjoy in the 
State of Tennessee are found in H.R. 2898.
    Third, in spite of the appearance of adequate revenues and 
near completion of phase II implementation in our State and 
others, we still face a challenge, particularly in supporting 
the financial stability of rural 911 districts and operations.
    And, fourth, the regulations are working. Blanket waivers 
to relax deployment schedules are unnecessary. The FCC can and 
should address the challenges of deployment on a case-by-case 
basis.
    With regard to the bill, we strongly endorse its passage 
with the following refinements: State 911 boards and entities 
should be eligible to receive and distribute Federal funds as 
well as coordinate those disbursements with local 911 
operations.
    And, second, provisions in section 4 and 5 of the bill 
potentially create an escape hatch for compliance, and it 
should be eliminated. Our Board recognizes the challenges 
facing PSAPs and carriers, especially in rural areas, in 
providing phase II service. Our Board has provided multiple 
extensions to our own requests for phase I and II service when 
requested by the carriers, but then only provided when the 
carrier has acted in good faith.
    As a result of its commitment, fiscal discipline, 
coordination role and cost recovery, Tennessee has established 
itself as one of the Nation's leaders in E-911 deployment, with 
90 percent of our State's 911 districts being Phase II ready, 
and many of those, if not most of those, receive phase II live 
data from at least one wireless carrier.
    This success, however, would not be possible without the 
regulatory backstop and support of the FCC. The bill creates a 
National Office of Coordination that will be very helpful in 
providing a one-stop shop for technical assistance, 
troubleshooting, driving new products and technologies, and 
needed dialog on all issues arising from 911 implementation.
    This would be a great asset to State organizations and 
local organizations alike. As we have seen with location 
technology solutions, data base management and other services 
required to conduct 911 operations, the high demand for product 
combined with an oligopoly setting can sometimes suppress the 
rise of better products, applications and protocols. It also 
results in higher solution prices to the carriers, PSAPs and 
ultimately the wireless consumer.
    With regard to this office, I would encourage other Federal 
agencies, such as the FCC, USDA Rural Utility Service, 
Department of Transportation and the Interior's Bureau of 
Indian Affairs should also be consulted in Federal 
coordination.
    Although I commend the bill's sponsors' and cosponsors' 
intent for ensuring fairness and cost recovery for rural 
wireless carriers, I strongly recommend the elimination of 
section 4 and 5 of the bill. If there is one thing that we all 
leave here today in agreement, it should be that consumers 
living in rural areas deserve the same level of E-911 service 
as those living in urban and suburban areas.
    Some argue that the FCC standards on accuracy should be 
relaxed in rural areas. I am here to tell you today that the 
need for accurate location data in rural emergencies is 
equally, if not more, important than the more populated 
locations.
    Current actions and orders of the FCC to encourage E-911 
deployment are working. Much of the extent of phase II 
deployment in the past 12 months has been due to the possible 
threat of enforcement. It is important to note, however, that 
despite the best efforts of carriers, PSAPs and State 
organizations, there will be some areas in this country where 
you cannot attain the accuracy standard, but to simply ignore 
the FCC's requirements without attempting to deploy, while 
banking on Washington lawyers to obtain regulatory relief in 
good faith is not in good faith, nor is it in the spirit of 
using the public's spectrum.
    I recommend that the FCC and carriers be left alone to 
explore and exhaust all avenues to address this situation 
before Congress sends a signal which can be interpreted as 
encouraging a blanket waiver.
    In conclusion, Mr. Chairman, H.R. 2898 takes one of the 
greatest steps toward helping ensure that E-911 service is 
enjoyed by all Americans, both rural and urban. Most of the 
approaches taken in this bill that the authors have crafted has 
had a proven track record somewhere in this Nation in making 
phase II 911 service available.
    Congress should recognize the valuable role that State 
boards and organizations can play in meeting the goals and 
objectives of the bill. The FCC should be permitted to continue 
working with rural carriers without the intervention of 
Congress, and the authors and cosponsors of 2898 can be very 
proud of this measure, for with those minor modifications, it 
will make great contributions toward public safety and 
security, as well as saving countless lives.
    Mr. Chairman, thank you for your support on E-911. I 
appreciate the opportunity to be here today, and I look forward 
to any questions that you or your colleagues may have later in 
the hearing.
    [The prepared statement of Anthony C. Haynes follows:]

  Prepared Statement of Anthony C. Haynes on Behalf of the Tennessee 
                     Emergency Communications Board

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Anthony Haynes, and I serve as the Executive Director of the Tennessee 
Emergency Communications Board (The Board). The Board serves as the 
state's authority for all wireless E-911 implementation, advancement 
and financial support. The Board also has financial oversight for the 
state's 100 local Emergency Communications Districts (ECDs), which are 
statutorily defined municipalities in our state. I am appearing today 
on behalf of the Board. I am also a member of National Emergency Number 
Association, the ComCARE Alliance and the National Association of State 
9-1-1 Administrators.
    (For further submission to my testimony, I've attached a joint 
public safety position paper of both the National Emergency Number 
Association and the Association of Public Safety Officials 
International, regarding E9-1-1 legislation before Congress.)
    I applaud your leadership, Mr. Chairman, as well as that of your 
colleagues and staff in the crafting of H.R. 2898. When enacted, this 
measure will help facilitate major advancements in the much needed 
areas of training, coordination and financial assistance for the 
nation's Public Safety Answering Points (PSAPs) and thus, improve the 
delivery of E-911 services. I also wish to extend a sincere thanks to 
members of the Congressional E-911 Caucus. Their voice in the Congress 
on E-911 issues is helping ensure that all Americans have access to 
this essential life-saving service. I also wish to thank Congressman 
Bart Gordon for his request to include the views of the Board for 
consideration today. The Board appreciates his continued leadership and 
interest in the progress of E-911 deployment in our state.
    On behalf of the Board, I strongly support the overall intent of 
H.R. 2898. Many of its components will put this nation on course to 
establish and improve the quality of E-911 service. If enacted with 
minor modification, our communities and homeland will be more secure, 
our streets safer, property losses lowered and most importantly, lives 
will be saved.
    Since its inception, the 911 system has been the first responder in 
times of individual and mass emergencies. Every day, Americans call 911 
at the time of their greatest need. In Tennessee alone, we average over 
11 million 911 calls per year. For the caller, the successful 
completion of a 911 call can mean the difference between danger and 
security, injury and recovery or life and death.
    Until recently, calls for help from wireless phones could not 
deliver similar location information to that of landline systems. The 
Federal Communications Commission (FCC) so well understood the value of 
E-911; it required wireless carriers to develop a similar capability in 
two phases to provide emergency responders with a 911 caller's precise 
location. Under the original FCC mandate, wireless carriers were to be 
well on their way of the second phase of the deployment of location 
capabilities.
    I am pleased to report that in the State of Tennessee, we have made 
substantial and meaningful progress in Phase 2 wireless location 
capability. In my statement today, I will respectfully make 
recommendations to improve the legislation before the Committee and 
emphasize these four points related to the deployment of Phase 2 E-911:

First, it can be done. Whether it's PSAP readiness or carrier 
        deployment, it takes commitment.
Second, many approaches and resources that enabled the successes that 
        we enjoy in Tennessee are found in the E-911 Implementation Act 
        of 2003.
Third, in spite of the appearance of adequate revenues and near 
        completion of Phase 2 implementation in Tennessee, our state 
        faces increasing challenges, especially in helping maintain the 
        financial stability of rural 911 districts.
Fourth, the regulations are working. Blanket waivers to relax an 
        already relaxed deployment schedule are unnecessary. The FCC 
        can and should address the challenges of deployment in specific 
        communities on a case-by-case basis, taking into account the 
        level of effort by carriers and communities.
    With regard to the E-911 Implementation Act of 2003, we strongly 
endorse its passage with the following refinements:

 States and State Emergency Communications Boards should be eligible 
        to receive and distribute federal funds and coordinate their 
        disbursement to local PSAPs;
 Auditing and accountability requirements should be reasonable and 
        coordinated on a statewide level; and
 Provisions in Sections 4 and 5 of the bill, which potentially create 
        an escape hatch to compliance, should be eliminated or 
        substantially modified.

                      TENNESSEE'S E-911 EXPERIENCE

    In the State of Tennessee, 100 local Emergency Communications 
Districts (ECDs) deliver 911 services. These municipal districts were 
created by state law in the mid-1980s and are governed by a locally 
appointed board. Historically, ECDs' primary source of operational 
revenue was fees assessed on local wired phone lines. Until recent 
years, this revenue mechanism was largely sufficient to meet the local 
ECD financial needs. The delivery of 911 service varies by ECD. In most 
cases, the local ECD supports its own dispatch operations. A 
significant number of ECDs deliver all 911 calls to local law 
enforcement or public safety agencies for separate dispatch and 
response. Nonetheless, the success of the 911 daily operations in our 
state is due primarily to the hard work and dedication of local 911 and 
public safety officials.

                     MEETING THE WIRELESS CHALLENGE

    In 1998, the state legislature established the Tennessee Emergency 
Communications Board to serve as the state's authority for the 
implementation and advancement of wireless and wireline E-911 service. 
The Board was also charged with financial oversight of the state's 
ECDs, and administering cost recovery for wireless E-911 from the 
state's E-911 Fund. This fund, created as a separate entity from the 
state's ``General Fund'', was to be used only for providing cost 
recovery to PSAPs and wireless carriers for Phase 1 and 2 costs, as 
well as grants to PSAPs for enhancing E-911 readiness and operations.
    To date, the Board has provided more than $10 million to 
telecommunications carriers and PSAPs primarily for Phase 1 E-911 cost 
recovery, and approximately $50 million which is pending primarily in 
Phase 2 requests. The Board provides 100 percent cost recovery to PSAPs 
and carriers for costs incurred associated with providing E-911 
service. A one-dollar monthly fee assessed to all cell phone users 
supports the board and all its activities, including consumers of 
``pre-paid'' wireless phones.
    The Board recognizes the challenges facing PSAPs and carriers, 
especially in rural areas, in providing Phase 2 service. In adopting 
Phase 2 cost recovery policies, the Board gave first priority to PSAPS 
and telecommunications cooperatives providing wireless service. The 
Board has provided multiple extensions to ``Requests for Phase 1 and 2 
Service'' when requested by carriers, provided the carrier has acted in 
good faith. The Board works hard to maintain an open dialogue with 
wireless and Local Exchange Carriers (LECs), deployment and technology 
vendors, and PSAPs. Finally, in addition to annual grants to help 
establish and maintain a GIS mapping system in each ECD, the Board 
established an annual Rural Dispatcher Assistance Grant intended to 
benefit the state's most rural ECDs. This grant would support the full 
time equivalent (FTE) costs of hiring one full-time or two part-time 
dispatchers annually.
    As a result of its commitment, fiscal discipline, coordination with 
local PSAPs and cost recovery toward Phase 1 and 2 implementation, 
Tennessee has established itself as one of the nation's leaders in E-
911 deployment. To date, 90 of the state's 100 ECDs are Phase 2 ready, 
with most receiving live Phase 2 data from at least one wireless 
carrier. We will not be satisfied until all ECDs and all carriers meet 
Phase 2 requirements; however we are very proud of our progress to 
date. This success would not be possible without the regulatory 
backstop and support of the FCC.

                    911'S ROLE IN HOMELAND SECURITY

    The Board also understands the critical role 911 serves in homeland 
security. To respond to our nation's preparedness against terrorism, 
the Board established a homeland security advisory council charged with 
identifying the shortcomings and weaknesses of the current 911 
infrastructure. The group is comprised of 911 leaders and engineers, 
current and former BellSouth employees who helped design the state's 
current 911 network 25 years ago, wireless carriers, GIS mapping 
experts, and the director of security for the Tennessee Valley 
Authority (TVA). Tennessee's rural areas host a significant presence of 
the nation's critical infrastructure in terms of electric power 
reliability. We believe it is imperative that an open dialogue and 
joint preparedness planning occur between 911 and the TVA.

                                TRAINING

    The accomplishments of the Board and local ECDs have increased the 
confidence of the state legislature in our organization resulting in 
the addition of responsibilities. Beginning this year, the Board will 
serve as the state's authority for setting all emergency dispatcher 
certification and training standards. It was the intent of the sponsors 
that the Board create a national model for dispatcher standards and 
training, in much the same way it has for E-911 deployment.
    Our experience in Tennessee, offers a model of public and private 
as well as state, local and federal cooperation. It is an experience 
that suggests that enhanced federal involvement will further advance 
our efforts in Tennessee and similar efforts throughout the nation.

                   H.R. 2898--A MEASURE WELL OVERDUE

    Government provides many services, some of which are critically 
important. Arguably, none is more important than helping people when 
they need help the most--when they call 9-1-1. H.R. 2898 recognizes key 
issue areas needed to ensure reliable, efficient and comprehensive 911 
service for all Americans.

                    NATIONAL OFFICE OF COORDINATION

    Section 158 of the bill creating an ``Office of Coordination'' 
would be very helpful in providing a one-stop-shop for technical 
assistance, troubleshooting, and fostering needed dialogue on all 
issues arising from E-911 implementation. This would be a great asset 
to state local 911 organizations alike. Phase 2 technology is dynamic. 
Almost every day something new is learned about its performance, 
applications, and shortcomings. Having such a clearinghouse in the 
federal government will help ensure objectivity and that no one company 
or technology can use such a clearinghouse as an opportunity to 
unfairly position itself in the marketplace. As we have seen with 
location technology solutions, data base management and other services 
required of 911 operations, the high demand for product combined with 
an oligopoly setting can sometimes suppress the rise of better 
products, applications and protocols. It also results in higher 
solution prices to carriers, PSAPs and ultimately the wireless 
consumer. I also commend the provision of reporting annually to 
Congress the activities of such an office.

                             PHASE 2 GRANTS

    If there were one core component of this legislation that would 
produce quick, substantive results, it would be the creation of E-911 
grants. In the end, one would have to have the necessary financial 
resources to bring E-911 technology into the PSAP. The technology and 
equipment needed for such is expensive. It is difficult for some rural 
areas with limited tax base, bonding opportunities or other revenue 
sources to acquire such equipment without outside help. Given this, I 
recommend that the maximum contribution of the federal match be 
increased to at least 80%. This would not only help rural PSAPs and 
governments, but also be more consistent with matching requirements of 
many federal homeland security grants. Federal agencies such as the 
FCC, USDA-Rural Utilities Service, Department of Transportation and the 
Interior's Bureau of Indian Affairs should also be consulted in federal 
coordination and grant determination.
    Current landline 911 technologies have been around for 25 or more 
years. Most PSAP managers and dispatchers are quite proficient at 
trouble shooting the older technology when necessary. E-911 technology 
is new, extremely complex and dynamic. Training for dispatchers is 
always an item of needed support, especially with new Phase 2 
technology. The PSAP dispatcher is most often the first to know if E-
911 technology is not performing properly. The dispatcher is where the 
``Trouble Ticket'' begins if equipment or technology is failing, or is 
not within the accuracy standard. Therefore, the need for training 
supported through grants is required now more than ever.

         FINANCIAL CRISIS FACING STATE AND RURAL 911 OPERATIONS

    A great misconception exists that if a state has a cost recovery 
mechanism and is coordinating E-911 implementation that all is well. 
Nothing could be further from the truth. Although state 911 boards and 
cost recovery mechanisms enable the potential for greater success, each 
state and locality faces its own unique financial challenges in 
implementing and maintaining E-911 service.
    Rural areas are already financially challenged due to smaller 
populations, and fewer businesses and industries--all of which are 
added an already small tax base. Adding to these challenges is the fact 
that many rural areas receive less favorable bond ratings and loan 
rates. This has recently complicated 911 financial support historically 
provided by towns and counties. The national trend of decreasing 
landlines, another key and traditional sources of local 911 funding, 
has made matters even worse. In Tennessee, state law requires that 25 
cents of each dollar collected by the state for E-911 be redistributed 
among the state's 100 ECDs based on population. The greater the 
population of an ECD, the greater the amount of disbursement of funds 
it receives. As a result, the more rural a 911 operation is, the poorer 
it is likely to be. Although the state Board has increased local 911 
fees in some rural areas to the maximum rate permitted by state law, 
and provided 100 percent cost recovery for E-911 PSAP costs, an 
increasing number of rural 911 operations face a potential financial 
crisis in the near future. Based on a review of ECD annual audits, our 
staff estimates that over $130 million is spent annually to provide 911 
operations in Tennessee. This does not include an additional estimated 
$20-30 million annually in non-cash resources provided by local police, 
fire and government organizations.
    State 911 Boards like Tennessee's could use federal resources to 
target support to where it is needed most and produce a coordinated and 
integrated emergency communications investment strategy. Therefore, I 
would strongly urge the Congress to consider the needs of, as well as 
the outcomes that can be attained in providing equal consideration to 
state 911 boards and coordinators in grant selection.
    I would recommend that in states where wireless or 911 boards 
exist, these organizations be used as state-based vehicles for grant 
disbursement. This can result in better targeting, matching and 
leveraging of federal monies with state and local resources if the 
state board is committed to such.

                             CERTIFICATIONS

    The effort to ensure that 911 funds collected from consumers are 
used for their intended purposes is important and laudable. We are 
concerned that sincere attempts by this legislation to discourage 
diversion of dedicated 911 funds may ultimately worsen the financial 
fate, not help PSAPs. In states where diversions have been a threat or 
a problem, including Tennessee, governors and legislators have been 
forced to eliminate state jobs, contracts, divert state highway monies 
and other dedicated funds in order to keep states solvent. The 
``raiding'' of such political sacred cows indicates that federal 911 
matching requirements would be of little deterrence. Further, I believe 
the certification language that disqualifies a state's 911 
organizations from all grant funding punishes those with little or no 
control over the system. I appreciate the need for the bill's authors 
to ``close the back door'' that may arise with some states accepting 
grants, while diverting dedicated 911 monies. Federal highway and 
pollution control and abatement monies may offer a stronger 
disincentive for diverting dedicated 911 funds.

                          ASSESSMENT AND AUDIT

    I commend the authors in crafting the provision for the FCC to 
monitor taxes, fees and other charges imposed by states on wireless 
carriers. However, there needs to be a realization of the real world 
implementation challenges of the requirements on the FCC and state and 
local governments. A more practicable solution would be to work closely 
with state 911 Boards to coordinate the audit and certification process 
so that the cost of reporting does not diminish the value of the 
federal funds.
    Another important element of 911 collections merits review. As 
wireless service rates continue to decrease, it is important to monitor 
the E-911 fees imposed and collected by individual carriers to recover 
their E-911 costs. An increasing number of wireless carriers are not 
only collecting their own E-911 recovery fees, but collecting and 
remitting the individual state's as well. Although I am not opposed to 
such practices if justified to cover the carrier's costs, they should 
not be permitted to ``double-dip'' from consumers and PSAP cost 
recovery for the same costs and these cost recovery mechanisms should 
not be ``profit centers'' for carriers. At the same time, just and 
reasonable administrative costs related to carrier and government 
collection and remittance of 911 fees to state and local agencies 
should clearly be a permitted use of 911 funds. The FCC should work 
closely with states and local PSAPs to ensure that state and carrier 
practices are properly coordinated.

                        REGULATORY REQUIREMENTS

    Although I commend the bill's sponsors and co-sponsors intent on 
ensuring fairness and cost recovery for rural wireless carriers, I 
strongly recommend the elimination of Sections 4 and 5 of the bill.
    The provision in Section 4 directs the FCC to ignore the fact that 
a PSAP may be able to receive and use live Phase 2 data. Rather, it is 
to use the presence of a cost recovery mechanism as a measure of PSAP 
readiness. If a state diverts 911 funds, the state is deemed not to 
have a sufficient cost recovery mechanism in place. The PSAP most 
likely will have no control over the decision to divert dedicated 911 
monies in a state. Thus, such a requirement only impairs and aggravates 
the advancement of E-911 deployment. The Congress should ensure that 
Section 4 does not create an escape hatch for carrier compliance with 
E-911 rules when states divert funds.

               FAIRNESS FOR RURAL CONSUMERS AND CARRIERS

    With regards to Section 5, we are concerned that it could be used 
to create a blanket E-911 deployment waiver for classes of carriers, 
regardless of their level of effort. Consumers living in rural areas 
deserve the same level E-911 service as those in urban and suburban 
areas. Some argue that the FCC E-911 accuracy standards should be 
relaxed in rural areas. The need for accurate location data in rural 
emergencies is equally, if not more important in rural areas than in 
more populated locations.
    Current actions and Orders of the FCC to encourage E-911 deployment 
are working. Much of the extent of Phase 2 deployment in the past 12-15 
months has been due to the threat of enforcement. In spite of this 
threat, multiple avenues continue to exist at the FCC for carriers to 
present unique circumstances impeding their deployment efforts. Those 
incurring such difficulties should be separated from those carriers 
that simply refuse to even try. From my perspective, the FCC has been 
firm, but fair in enforcing its E-911 requirements. It's important to 
remember that all carriers, regardless of size, have known for years 
the E-911 accuracy standard and of its ultimate enforcement.
    It is important to note, however, that despite the best efforts of 
carriers, PSAPs and states, there are some areas in where the standard 
cannot be attained. The unique characteristics of the terrain, distance 
from towers or technology limitations will prevent attainment of the 
FCC's accuracy standards. In some cases, the cost of attaining the 
accuracy standard may be prohibitive. But to simply ignore the FCC's 
requirements without attempting deployment while banking on Washington 
lawyers to obtain regulatory relief is not acting in good faith, nor is 
it in the spirit of using the public's spectrum.
    In late 2001, our Board entered into an agreement with Advantage 
Cellular, a small coop, for the purpose of conducting a Phase 2 trial. 
Advantage Cellular provides wireless service in some of the most 
challenging terrain east of the Mississippi River. Advantage is 
considered a Tier 3 carrier by the FCC. The significance of the 
Advantage trial was meeting, and in some cases exceeding the FCC 
standard in very difficult terrain and a limited number of towers with 
which to work. In the end, the trial was successful. Their success did 
not happen without months of technological challenges and frustrations. 
The bottom line is that it took the commitment of all involved, 
especially the carrier, to overcome the challenges and make Phase 2 
service a reality for their area.
    In cases where carriers have acted in good faith and the standard 
is not attainable, the FCC has the ability to verify, extend and 
ultimately forebear its requirements imposed on a carrier. I recommend 
that the FCC and carriers explore and exhaust all avenues to address 
this situation before Congress sends a signal, which could be 
interpreted as encouraging a blanket waiver.
    The cost incurred by small and rural carriers serving rural areas 
is a valid consideration. We are pleased that four out of five rural 
(Tier 3) carriers in Tennessee are underway, or have completed their 
Phase 2 deployment. Two of these four are currently receiving Phase 2 
cost recovery. In states and localities where cost recovery is absent, 
there are financial opportunities available to the carrier in meeting 
deployment costs. The USDA Rural Utilities Service, Rural Telephone 
Bank, CoBank and the National Rural Telecommunication Finance 
Corporation are examples of a few rural lenders whose mission is to 
bring essential services to rural America. Carriers can also recover 
part, if not all, of their costs by directly placing a line item on the 
consumer's monthly bill and prepaid cellular service.

                          CONGRESS AND THE FCC

    Congress can provide appropriations through the USDA Rural 
Utilities Service and other rural development programs to assist rural 
carriers and PSAPs. Such authorizations already exist in the Farm Bill, 
Rural Electrification Act and other legislation. The FCC can help as 
well. As more and more wireless carriers apply for ``Eligible 
Telecommunications Carrier'' (ETC) status in order to receive 
``Universal Service'' support, the FCC could condition that support on 
deploying E-911.

                               CONCLUSION

    H.R. 2898 takes one of the greatest steps toward helping ensure 
that E-911 service is enjoyed by, and available to all Americans--rural 
and urban. Most of the approaches taken in the bill have a proven track 
record of facilitating positive outcomes in E-911 deployment, 
maintenance and advancement in both urban and rural areas. The grant 
opportunities created in the bill are desperately needed by state and 
local 911 authorities alike. However, the resulting action from the 
proposed certification requirements could hurt PSAPs that need help the 
most. State wireless or 911 boards, where they exist, should serve as 
the administering or authorizing agency for 911 grants in order to 
promote targeting based on need, matching opportunities and leveraging 
with other sources. State 911 boards should also be eligible to receive 
grants for regional E-911 initiatives, dispatcher training, securing 
technical support and other needs unforeseen at the current time. The 
FCC should be permitted to continue working with rural carriers without 
intervention from the Congress. Congress should also support other 
opportunities to assist rural carriers and PSAPs through rural 
telecommunications financing and grants.
    The authors and co-sponsors of H.R. 2898 can be proud of this 
measure. With minor modifications, it will make great contributions 
toward public safety and security, as well as saving countless lives. 
On behalf of the millions of 911 professionals and all involved in 
supporting their work, I thank you for your support and the opportunity 
to be here today.

    Mr. Upton. Thank you.
    We would also like to acknowledge that Bart Gordon is a 
valuable member of this committee. He has probably gone back to 
Tennessee with no votes.
    Mr. Addington, welcome.

 STATEMENT OF TERRY W. ADDINGTON, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, FIRST CELLULAR OF SOUTHERN ILLINOIS

    Mr. Addington. Good morning, Mr. Chairman, members of the 
Committee. I can't tell you how honored I am to be in front of 
you today. I am going to speak from the heart. I am going to 
depart from my text. I am going to speak from the heart very 
briefly. Phase II. I want it. I have been trying to get it 
since 2001. And I am so close that I can taste it.
    First Cellular is a small rural wireless carrier serving 
the lower 24 counties of Illinois. We cover about 10,000 rural 
square miles and have a population density of approximately 50 
people per square mile. Our largest city is Carbondale, 
Illinois, at about 30,000 people, when the university is in 
session. The rest of our coverage area is made up of small 
towns, farmland, freeways and very rural back roads. I employ 
150 people. We are represented by Congressman John Shimkus, and 
are proud of him as our Congressman, and appreciate his efforts 
for the people of southern Illinois. It is my privilege to be 
able to publicly thank you, Congressman Shimkus. We appreciate 
your good work.
    I support H.R. 2898, and I thank you for considering it. 
This legislation will help wireless carriers in a variety of 
ways. I support the review of accuracy requirements in rural 
areas, and the provision that requires States to certify that 
they are not diverting E-911 funds collected from the public. 
In my case, these two requirement are paramount and key to this 
legislation in their benefit to First Cellular and other rural 
wireless carriers.
    I also believe there is value to the creation of an office 
for E-911 coordination, as many of the issues causing delays 
for my deployment are a result of communications coordination 
and compatibility issues with vendors. Coordination with public 
safety answering points is also essential. I would like to note 
in our area, our PSAPs have been an absolute joy to work with.
    Of all of the government mandates we are trying to support 
at this time, E-911 is the one that saves lives. As such, this 
mandate deserves the special attention called for by H.R. 2898. 
This legislation calls for an amendment to the Communications 
Act of 1935 to include a provision that requires States to 
certify that they are not diverting E-911 funds. I support this 
wholeheartedly.
    As of August 11, 2003, the Governor of the State of 
Illinois signed a law that provided for the recovery of costs 
for phase II of E-911. Unfortunately, rumors are already 
rampant that prior to its effective date of January 1, 2004, 
the E-911 fund will be raided by the State to provide money for 
the State general fund. This must not happen.
    The funds were collected at a rate of 75 cents per month 
from every wireless subscriber in the State since August 2000. 
These funds were collected under the premise that they were 
destined to enhance the safety of the individual wireless user 
by funding the deployment of a wireless E-911 system. In my 
opinion, the use of those funds for anything other than for 
what it is intended would constitute a fraud upon the wireless 
customers of the State of Illinois.
    H.R. 2898 is exactly on target in addressing the diversion 
issue. I would like to raise a real Catch-22 that I am facing. 
Passage of the Illinois cost recovery statute happened to 
coincide with our final vendor and technology decision. As we 
began the process of issuing a purchase order to move forward 
on deployment, we were told by the State Central Management 
Services Agency, the agency that administers the fund, since 
the law is not effective until January 1, 2004, any expenses 
incurred before 1/1/2004 were not recoverable.
    So the Federal Government tells me on one side we must 
deploy soon, or we can be fined, while the State government 
tells us, if you want to recover your costs, you need to wait. 
This make no sense to me, and is a clear disincentive to a 
timely deployment of a system that could save lives.
    Finally, for carriers who serve rural areas, flexibility in 
the application of accuracy requirements is a critical 
provision of this legislation. Next to cost recovery and 
nondiversion of funds, this is probably the most critical 
element of the legislation because it could be the difference 
between reasonable investment and an investment that is simply 
infeasible.
    Rural networks are different from those in urban areas. 
Many rural carriers cover very remote areas with low population 
densities, and only one side covering them. This makes 
triangulation to meet accuracy standards extremely difficult. 
In urban areas the increased density of cell sites permits 
triangulation to work well. This fundamental difference could 
require the addition of several cell sites in a rural area 
situated not for customer service needs, but simply for more 
finite and possibly, possibly, unnecessary accuracy results.
    Getting within a few hundred feet of someone in need on a 
rural back road may more than suffice to locate that 
individual. In other words, the need and ability to meet the 
required accuracy standards in these areas may not balance 
against the cost of building additional sites, especially 
without cost recovery.
    Mr. Chairman, distinguished members of the committee, once 
again I offer my support of this legislation. Thank you so much 
for allowing me to air my views and to submit to you my story. 
Again, I would ask for your support. Thank you very much.
    [The prepared statement of Terry W. Addington follows:]

  Prepared Statement of Terry W. Addington, President and CEO, First 
                     Cellular of Southern Illinois

    My name is Terry Addington and I serve as President and CEO of 
First Cellular of Southern Illinois. I have served in this capacity 
since 1994. I also hold positions on the Boards of Directors of RCA, 
The Rural Cellular Association, CTIA, The Cellular Telecommunications 
and Internet Association, and ITA, the Illinois Telecommunications 
Association. I am a past president of RCA and am currently sitting as 
Vice-Chairman of CTIA.
    I am here today speaking only on behalf of my company, First 
Cellular of Southern Illinois. I am simply a small business owner and 
operator from Middle America. I am not a lobbyist nor am I an 
experienced ``Washington insider''. I have no Washington office nor do 
I have any regulatory staff. A lawyer or a consultant did not write my 
testimony and written statement. My ``special agenda'' is only that of 
a business trying to stay in business and deliver a fair return to my 
shareholders. The perspective I share with you is from one carrier and 
is one person's opinion based on my experiences in trying to implement 
phase II of the E-911 mandate.
    First Cellular is a small rural wireless carrier servicing the 
lower 24 Counties of Illinois. We cover about 10,000 rural square miles 
and have a population density of approximately 50 people per square 
mile. We sit between St. Louis, Missouri and Evansville, Indiana. Our 
largest city is Carbondale, Illinois at about 30,000 people when the 
University is in session. The rest of our coverage area is made up of 
small towns, farmland, freeways and very rural back roads. I employ 150 
people. We are represented by Congressman John Shimkus and are proud of 
him as our Congressman and appreciate his efforts for the people of 
Southern Illinois. It is my privilege to be able to publicly thank 
Congressman Shimkus. We appreciate him and his leadership.
    I am here today to discuss the pending legislation on wireless E-
911. I support this legislation and thank the committee for considering 
it. It will assist wireless carriers in a variety of areas. I 
especially support the review of the accuracy requirements in rural 
areas and the provision that requires states to certify that they are 
not diverting E-911 funds collected from the public. In my case, these 
two requirements are paramount and key to this legislation in their 
benefit to First Cellular of Southern Illinois and other rural wireless 
carriers.
    I also believe there is value to the creation of ``An Office for E-
911 Coordination'' as many of the issues causing delays for my 
deployment are a result of communications, coordination and 
compatibility issues with vendors. Unlike other carriers, vendors have 
been my biggest obstacle to a timely deployment, not the PSAP's. In my 
area the PSAP's have been a joy to work with.
    Of all the government mandates we are trying to support at this 
time, this is the one that saves lives. I made the decision in 2001 
that we would not only comply with this mandate; we would get behind it 
with all of our resources and even included it in our 2002 and 2003 
marketing plans. We wanted to be first to market and tout the life 
saving commitment this technology provides to our customers. We were 
first to deploy phase I of E-911 by many months, being in full 
compliance for eleven out of thirteen PSAPs by June of 2002 with the 
other two not capable of accommodating our data at that time. Because 
phase II offers an incredible improvement to the safety of our 
customers, we felt an early deployment was best for First Cellular and 
for our customers. We budgeted almost 22% of our capital budget for a 
solution and were prepared to deploy it even without a State of 
Illinois law providing phase II cost recovery.
    We began exploring solutions in 2001 and hoped to initiate a 
contract by mid to late 2002 for a 2Q 2003 in-service deployment. 
Things have not gone as we planned, or hoped, or wanted. We feel a 
network solution works best for our customers because of the choices 
the competitive marketplace has allowed them to make. A handset 
solution is a fine solution, and I'm sure will work wonderfully for 
many carriers and their customers. First Cellular made a commitment to 
ourselves, for our customers, to not only meet the letter of the 
mandate, but to meet the intent of the mandate. I believe the intent of 
the mandate is to provide enhanced safety and security to as many 
subscribers as possible. In our marketplace, over 15,000 subscribers 
have made the decision, over time, to continue their analog service. In 
fact, I recently received E-mail from a gentleman quite angry about 
rumors he has heard about the discontinuation of analog service. After 
several years of incentives and promotions designed to move people off 
analog and into digital, 15,000 of my customers and citizens of 
Southern Illinois have said, ``no thank you'', analog is fine. Also, I 
serve about 100,000 roamers a month. A network solution serves all my 
customers, digital, analog and roamers. A handset solution requires a 
handset swap-out and cannot serve all my roamers unless they just 
happen to have a compatible system. The marketplace has spoken. 20+ % 
of my customers want to keep their analog service; I think they deserve 
phase II service with E-911.
    Additionally, to prop up declining roaming revenues, we have 
decided to deploy a GSM overlay on our current CDMA and analog system. 
I'm sure you are aware there is not a handset solution for GSM. By 
deploying a network solution we can offer one solution for our whole 
marketplace thereby avoiding the need to deploy a handset solution for 
our CDMA network and a network overlay for our GSM system. It makes 
sense operationally and it makes sense economically.
    I mentioned earlier that my biggest issue with obtaining a 
deployable solution was because of vendors. As you are well aware, 
First Cellular is just a cellular service provider. In order to deliver 
a phase II solution, two things were needed, cooperative PSAPs and a 
phase II solution from a vendor. Our relationship with our PSAPs has 
been wonderful. Early on we established a relationship with the 
unofficial PSAP area coordinator. With regular and honest dialogue we 
kept them informed of our progress every step of the way. They have 
been patient, understanding and easy to work with. I applaud the 
efforts and attitude of our local PSAPs led by Mr. Ken Smith, PSAP 
administrator of Williamson County, Illinois. We have letters of 
request for phase II service from 5 PSAPs of which only 3 are capable 
of accepting data at this time. Those PSAPs have worked with us and 
have been patient as we have searched for a solution that will work for 
all our customers.

The Creation of an ``E-911 Implementation Coordination Office''
    The creation of an ``E-911 Implementation Coordination Office'' has 
the potential to assist all stakeholders in early coordination of E-911 
implementation and accountability. If carriers are to be held 
accountable for deploying a phase II solution, why are some suppliers 
of those services not held accountable for performance and follow 
through? If carriers are bound by a Federal mandate, why is the switch 
manufacturer not required to provide compatibility to the solutions 
that are generally available in the marketplace? It seems to me the 
onus is solely on the carriers, PSAPs, and, to a lesser degree, the 
LECs.
    I began contacting location vendors in late 2001. Calls were placed 
to the two network location providers, Grayson Wireless (now Andrew) 
and TruePosition. Both were invited to make presentations on their 
products. Our first meeting was with Grayson Wireless on March 11, 
2002. After many unsuccessful attempts to get TruePosition on site we 
decided to move forward with Grayson. Soon after this decision was 
made, it was discovered Motorola had certified interoperability with 
only 1 of the 2 network providers, TruePosition. We finally established 
dialogue with TruePosition and on August 26, 2002 were able to get the 
full presentation of their product.
    Shortly after our meeting in August we initiated contract 
negotiations. To say this was an arduous undertaking would be a gross 
understatement. After months of difficult communications we finally 
received a contract for execution at the end of February 2003. First 
Cellular executed the agreement on February 24, 2003 and sent the 
document to TruePosition to do the same. For the next 60 days the 
contract was mired at TruePosition and communications virtually ceased 
unless we called or E-mailed repeatedly. During the middle of March 
2003, First Cellular was assured, repeatedly, that a contract would be 
in our hands within ``a few weeks''. It was at the end of those ``few 
weeks'', on or about April 23 that we learned TruePosition had 
developed a new version of their product, and, the new equipment was 
now not compatible with our Motorola switch and they refused to sell us 
the version of their product that is compatible.
    Our Motorola switch remains incompatible with both current versions 
of the TruePosition and Grayson solutions. In fact, in a letter from 
Motorola, dated August 4, 2003, they state, ``In early June of 2003, 
Grayson and Motorola entered into discussions regarding the feasibility 
of offering a Network-Based Wireless E-911 Phase II compliant solution. 
A technical exchange meeting was conducted to discuss the inter-
operability capabilities of both Vendors' platforms. After reviewing 
all documentation presented and information exchanged, it was concluded 
that, with the current product offerings of both companies, a product 
that would meet the technical specifications of the Wireless E-911 
Phase II standards could not be provided.''
    To rectify this situation, Motorola states that they will require 
enormous research and development resources and considerable time. In a 
presentation to First Cellular on September 5, 2003, they conclude that 
their portion of a solution, to deliver the proper messaging to one of 
the two location vendors, would cost between $2.5M and $3.3M dollars, 
just to develop, and would only be valid for one carrier, First 
Cellular. The Motorola estimated schedule for the earliest possible 
deployment was first quarter of 2005. Clearly this would not serve the 
intent of our initiative to enhance public safety with an early 
deployment. Motorola also states the cost from TruePosition to merge 
their narrow and wide band products on a common platform is estimated 
to be $2.4M! This is in addition to the $2.5 to $3.3M cost from 
Motorola. So, for a network solution from TruePosition, First Cellular 
would have to pay between $4.9M and $5.7 for development costs in 
addition to the over $1M originally quoted as purchase and deployment 
costs. A total of $5.3 to $7.1M for a network based solution from 
TruePosition.
    First Cellular has an annual budget of approximately $7M each year, 
give or take, depending on the projects and their scope and size. If 
the same was true of Grayson, it was clear we had no choice but to 
pursue a handset solution. While acceptable to meet the specific 
requirements of the mandate, we remained concerned about falling short 
of the true intent, real enhancements to public safety to all our 
customers, including roamers.
    In the last few weeks, Grayson has stepped up and are telling us 
they have found a way to work around the Motorola shortfall and for a 
much more modest development fee, can deliver a solution in about 6 
months. Their solution would provide one solution for our CDMA network 
and our soon to be installed GSM network and would serve our analog 
subscribers and all First Cellular roaming customers as well. We hope 
to be online by 4/1/04 or preferably before.
    I believe there must be more accountability for all parties 
involved. I have heard many anecdotes about the failure of the wireless 
carriers to implement this mandate. I have heard the PSAPs are to 
blame. In my case, the PSAPs have been a joy to work with, and, I feel, 
we have expended tremendous amounts of time, energy and management 
resources in a sincere and almost desperate effort to not only meet 
this mandate, but also meet its true intent and truly work to save 
lives. In my case, the roadblock was from the vendor community. Where 
was their accountability during this process? As for Motorola, why are 
they allowed to not support a standard that is required for a mandate 
we must deliver? Their response was to tell me to adopt a handset 
solution. It would work, but was it the right solution for my customer. 
Unequivocally, no!
    I would hope, with this legislation, and the creation of an office 
to oversee the deployment of this life saving service, accountability 
for all, rather than some, would result. Misinformation could be 
challenged, performance claims could be verified and success stories 
could be shared. I do not regularly support the creation of new 
bureaucracies, but after my experience, I can only conclude, somebody 
needs to manage the multiple facets of meeting the mandate and provide 
leadership and accountability to the process.

Diversion of E-911 Funds
    The availability of cost recovery is a major incentive to deploy 
advanced E-911 services. I truly believe government, both at the state 
and federal level, does not completely comprehend the viciousness of 
competition and the impact it has on the abilities of carriers, 
especially the small carrier, to provide a consistent return to 
shareholders. Risk is inherent in this industry because of the capital-
intensive nature of the business and the competitive environment we 
perform in. If economic uncertainty is added into the mix, as is 
currently the case, risk multiplies. Risk rises and competition is 
threatened when costly government mandates enter into the mix.
    Some mandates make great sense, like Wireless E-911, because it 
saves lives. Others, like Wireless Local Number Portability (WLNP), 
simply cost money and drain resources. A typical new cell site costs 
First Cellular in the neighborhood of $250,000 to deploy. To implement 
CALEA with a Motorola solution costs $605,000, and I have never, in 13 
years of operations, had even one request for a wiretap.
    So far, WLNP has cost me $790,600 with an estimated $210,000 of 
annual operating costs. E-911 phase II will cost me $2M. That is 14 
cell sites I will not be able to build. While I fully support E-911, 
the diversion of capital, including human capital, is significant. All 
this comes at a time when competitive pressures are causing cash flows 
and profitability to decrease; all this at a time of economic 
uncertainty and difficult capital markets.
    In 2004, First Cellular will experience our first decline of cash 
flows in our history at approximately 19%. At the same time, 20% of my 
debt is coming due. Since shareholder value will decline, capital 
expenditures will have to be cut. No new cell sites will be scheduled 
for construction in 2004. If the impact of WLNP is significantly higher 
churn as some project, then this model I've just described becomes much 
worse. Un-funded mandates truly impact the business model, for all 
carriers, but probably more dramatically for the small rural carriers. 
We have less access to capital and much lower buying power for phones, 
network equipment and enhanced service platforms and, something people 
never consider, we have far fewer human resources and expertise to 
develop, test, and support any new service, mandate or not. The quest 
for an acceptable E-911 solution has taken many thousands of man-hours 
of time over the last couple of years, time we could've spent bringing 
other services and higher quality to my customer.
    This legislation calls for an amendment to the Communications Act 
of 1935 to include a provision that requires states to certify they are 
not diverting E-911 funds. I support this wholeheartedly. Cost recovery 
on E-911 is an incentive to overcome all the obstacles and devote the 
resources necessary to get the job done. With cost recovery, I can rest 
assured my capex will be protected and that money can go to the 
deployment of additional cell sites for better coverage, and that is 
what customers ask for everyday, better coverage. With cost recovery, I 
can recoup my operating expenses and offset further declines in company 
value and negate any risk I might have with lenders and shareholders.
    I am thankful that as of August 11, 2003 the Governor of the State 
of Illinois signed a law that provided for the recovery of costs for 
phase II of E-911. Unfortunately, rumors are already rampant that prior 
to its effective date of 1/1/04, the E-911 fund will be raided to 
provide funds for the state general fund. This must not happen! The 
funds were collected, at a rate of $.75 per month from every wireless 
subscriber in the state since August of 2000 under the premise that 
these funds were destined to enhance their safety by funding the 
deployment of wireless enhanced E-911 and nothing else. In my opinion, 
the use of these funds for anything other than for what it is intended 
would constitute a fraud upon the wireless customers of the State of 
Illinois.
    Curiously, another anomaly arises that makes one wonder what is 
truly driving this process. As soon as the State of Illinois 
reimbursement legislation was passed and we were finally offered an 
acceptable solution from our new vendor of choice, Andrew Corporation, 
we began the process of issuing a purchase order to move forward on 
deployment. We began paving the way for cost recovery on costs already 
incurred for phase II (mainly legal costs) and were told by an 
administrator with the State Central Management Services (the agency 
that administers the fund) that since the law was not effective until 
1/1/04, any expenses incurred before 1/1/04 were not cost recoverable. 
So, the federal government tells me I must deploy and that I must 
deploy soon and if you fail you could be fined, while the state 
government gives me a clear signal that if you want to be paid you need 
to wait. This makes no sense to me and is a clear disincentive to 
deployment.
    This aspect of the legislation is critical. As an industry, we need 
cost recovery. In states where cost recovery exists I would suspect 
deployment would be expedited. In states that have funds already in 
place it is crucial they are not diverted for uses other then what they 
are intended for. Wireless carriers will meet the mandates, funds or 
not, but the damage to a competitive business will be less and the 
customer will benefit sooner from enhanced E-911, as well as more and 
improved coverage if the funds are not diverted.

FCC Review of Accuracy Reauirements In Rural Areas
    For rural carriers, this is a critical provision of this 
legislation. Next to cost recovery, this is probably the most critical 
element of the legislation because it could be the difference between 
reasonable investment and an investment that makes no sense at all.
    Rural networks are different than networks in urban areas. In urban 
areas you have a density that requires many cell sites in a grouped 
configuration to be mutually supportive. They overlap and are densely 
packed. As such, they provide a superior backbone to overlay technology 
on. The ability of multiple cell sites to ``see'' the subscriber and 
thus be able to locate them by triangulation is high.
    Rural markets are different in that population centers usually 
follow freeways or major highways. As such, it is not unusual to see a 
network that is strung out along a road, hence the phrase ``a string of 
pearls''. The network of First Cellular is somewhat different in that 
early on we decided to overbuild the network so even rural roads and 
many of the smaller towns have coverage. In our small coverage area of 
24 counties and approximately 10,000 square miles we deploy over 80 
sites today. A more typical build for this area would normally be 
around 50 to 60 sites. Even with our large build and dense rural 
coverage we still have at least one area that will be a significant 
challenge to meet the current accuracy standards. In the county where 
we have this significant technical challenge, First Cellular has only 
has one main site, supplemented with peripheral service from two 
others. Therefore, it is conceivable, under the current guidelines, one 
or two additional sites may have to be built to meet the accuracy 
standards. Customers have simply not demanded additional coverage or 
quality in this area. However, if the accuracy standards are to be met, 
then towers may have to be built, at a significant cost solely to meet 
the 911 mandate.
    It is very likely, even with reduced accuracy standards, a customer 
needing their location to be identified could be located. The rural 
nature of the area does not require the customer to be pinpointed with 
an accuracy that is needed in a densely populated area. I would argue 
it is necessary to locate someone in an office building at a particular 
address in the City of St. Louis, but getting within a few hundred feet 
of someone in need on a rural road would be more than enough to locate 
that person. Many rural carriers have this problem in an exaggerated 
fashion. They cover very remote areas that only have highways running 
through them with very low population densities. The need and ability 
to meet the accuracy standards in these areas do not balance against 
the cost, especially without cost recovery. The ``cookie cutter'' 
approach of a ``one-size fits all'' solution does not make sense for 
rural America. It is not good business and I am not sure if public 
safety will be enhanced. I would ask for your support of this provision 
of the legislation. It is a critical issue for all providers of service 
to rural America, small and large.

Other Issues of Concern
    I sincerely applaud this legislation; I support it and ask for your 
endorsement. Do I think legislation could and should address other 
issues? I think it could, but let me emphasize how grateful I am to its 
sponsors and supporters for listening to us and giving us legislation 
that really does help the wireless community and public safety.
    I would recommend these additional measures be considered:

 Cost recovery is the most critical issue. I don't understand why 
        federal legislation cannot be enacted, similar in nature to USF 
        fees, which mandate the collection of E-911 fees from all 
        wireless customers, superceding the states, thereby insuring 
        funds for all critical entities and no diversion of funds by 
        the states.
 Many rural carriers have networks with obsolete technology. In the 
        early days of digital deployment many small and rural carriers 
        deployed the TDMA standard. This standard was cheaper and 
        easier to deploy over legacy analog networks. With no future 
        migration path this technology is now obsolete. Changing out a 
        complete network from one technology to another is a massive 
        and expensive undertaking. Delaying the E-911 deployment 
        requirements until the new network technology is installed will 
        ultimately aid the implementation of E-911. It will insure the 
        correct E-911 solution is deployed for the right network and 
        that it will work the way it is intended to work the first 
        time.
 Finally, I would ask that the waiver process currently in place today 
        with the FCC which is, at least to this date, working 
        effectively, continue. I applaud the FCC in this effort. They 
        have given carriers, like First Cellular, a venue to explain 
        their circumstances and ask for relief from deadlines. So far, 
        at least from my perspective, the FCC has been sensitive to our 
        issues, granting extensions where warranted. We truly 
        appreciate this.
    Thank you for allowing me to air my views and to submit to you my 
story. Again, I would ask for your support.

    Mr. Upton. Well, thank you all for your testimony. At this 
point we will be asking questions from the panel. We will limit 
the questions to 5 minutes from here.
    And I just want to say, Mr. Addington, I completely agree 
with your assessment with regard to the charge that you pass on 
to the users. And one of the provisions, of course, in this 
bill--and I have to say that when I first started in Congress, 
I began to serve on the Public Works and Transportation 
Committee, began to work on the highway bill, and I found and 
believed that my constituents, as we pay our taxes at the pump, 
we don't mind those taxes, knowing that, in fact, those--all of 
those dollars are to go into the trust fund to be used for 
bridges and roads and highways. And we had a big battle, I 
guess it was in the 1980's, as to whether we should have all of 
the funds collected. We finally won on that provision.
    And, Mr. Berry, I am very disturbed to hear, and I wish my 
colleague Mr. Burr were here, though he is not a member of the 
subcommittee, from North Carolina, that they have now diverted 
$58 million being collected for something else.
    I have to say, I think about my State legislators, knowing 
that it was done in their State capital, mine, of course, being 
Lansing. But I will tell you this. If any of my State 
legislators would support raiding those trust funds and 
diverting those dollars for something else, I think there would 
be hell to pay, and they would have a very tough time. As you 
look at my district in southwest Michigan, you can tell I am 
from Michigan, and Mr. Stupak would add the upper part, and 
down here. But, you know, my district is very diverse. We have 
got rural and urban needs. We have got Kalamazoo, a city of 
100,000. We have got another county without a four-lane road, 
very much the rural side, as Mr. Addington described to 
Carbondale, I guess.
    But as all of us have cell phones, and we pay that fee, we 
want it to enhance our 911 service. And I will tell you--$58 
million goes a long way. As we look--we are having some very 
tough budget constraints here. We are talking about, 
particularly with Iraq and the economy the way that it has 
dropped, we are looking at a new program to help State and 
local folks.
    And I guess it is very much along the lines of the highway 
bill, when we look at bridges and roads, that the State has to 
make a commitment, too, if you are going to benefit from the 
Federal dollars that are going to be added. In the House bill 
we have $100 million each year for the next 5 years. The Senate 
bill is a little bit higher. As we move this, we are going to 
have to agree to that. But I guess our sense is that if we are 
going to embark on that program, the States have to make it a 
priority, too. And I can't comment probably for North Carolina 
folks, but if they divert those dollars for something else, 
then they must decide that maybe it is not the priority that 
other States have, and that is the reason why--why every one of 
us up here is a cosponsor of the bill as well look at this 
particular section, section 4 of the bill; that if, in fact, 
they divert it, we have got other areas that can benefit.
    North Carolina is going to take that money and use it for 
something else. Michigan, California, and Illinois will be--
will take those dollars. And so what we are trying to do is 
tell the States, forget it. It is a priority. Constituents are 
going to believe that, too. If we are going to have a new 
Federal program, then the States need to be partners in this, 
too.
    And I have to say, at least from my point, that I will work 
very hard to stop efforts to take that section out, because we 
want to keep their feet to the fire so that we can avoid 
precisely what has happened in Illinois with Governor 
Blagojevich in terms of what he has had to do.
    I don't know if Indiana is planning to--has diverted 
dollars, but I know that as we have had some other hearings on 
oversight on this, we have been pretty tough on those States 
that have used it for projects that are not related to E-911, 
where, you know, again, as we had our very first hearing on 
this issue, I will bet that just about every member of this 
subcommittee has made a 911 call from a cell phone, and we 
might not have been in our district, and we didn't know 
necessarily where we were. I remember Mr. Terry, who just left 
to catch his plane to go to Nebraska, I think he described his 
call in Colorado, a State adjacent to his. And, you know, we 
just assume often that those calls, they know where we are. 
And, boy, if--you know, if helping the PSAPs is so important, 
we have got to have that.
    I know my time is about ready to expire, but maybe I will 
let you comment in terms of where you are maybe from your heart 
on this. But relating to where things might be in your State 
capital, Mr. Haynes as well, and then I will yield.
    Mr. Berry. I certainly am proud that in Indiana we have not 
diverted our funds.
    Mr. Upton. So you would benefit from North Carolina's 
problem?
    Mr. Berry. So we have not. But I think what is also 
important is that when we create legislation, we create 
legislation and make those sticks, and mean those sticks for 
the appropriate individuals. And certainly those sticks need to 
be faced directly at the States, not at our PSAPs. It is the 
PSAPs that need to make the commitment of dollars, it is the 
PSAPs that need to improve and upgrade their systems, and they 
should not be held accountable for decisions that the State 
legislators and Governors have made in many States across the 
country. And, as a result, I think we need to encourage our 
PSAPs to make those investments in capital investments, in 
upgrading of equipment, so that they can respond to their local 
citizens' desires to have wireless enhanced 911. And we should 
then make other reprehensible sticks toward those States then 
that would not utilize the funds appropriately.
    Mr. Upton. Mr. Haynes, do you want to comment?
    Mr. Haynes. Mr. Chairman, I am also pleased to announce 
that for the last 2 years under that threat, we have not had 
any funds diverted either. In the State of Tennessee, it is 
against the law to use 911 moneys. But simply the legislator 
passes a law to break the law, to be able to raid the fund. It 
is very easy. As you know, it can be done with legislation. 
Fortunately, that has not happened yet.
    It is probably fair to the Governors of this State to 
recognize at least in our State we have got a balanced budget 
constitution. On June 30 if the bills are not paid, we are 
illegal. If you don't--like here in the Congress, if you don't 
honor your Constitution, you are nothing. Nothing is worth 
anything. So our Governors take very serious that role.
    I am pleased at the leadership our Governor Phil Bredesen 
has taken on this issue. Early coming into his administration, 
he said there are no sacred cows. That was highway funds, you 
name it. And the road builders are a very powerful lobby in our 
State. In doing that, they all came out in the end--the 
Governor said, at the end of the day, if we are about to turn 
out the lights on the State, so to speak, then I will look at 
using those 911 moneys. And the commitment that he gave a 
senator was, we will only do it then, or I will only take the 2 
million in reserves that your board is not allowed to touch by 
law. So I would just like to commend our Governor for the 
leadership that he has shown on this issue. It is a problem.
    But from what we have seen in Tennessee politically, if you 
are going to touch those very politically powerful sacred cows, 
I am afraid that the language in this bill will do little to 
deter, because we have cut back on departmental efforts across 
State government that generate revenues for the State of 
Tennessee. That just goes counter to your revenue crisis.
    So I would say if Congress is looking for that disincentive 
for States to do that, you may have to look to areas that are 
not within the jurisdiction of this committee, such as Federal 
highway matching funds, EPA pollution abatement control moneys, 
for point source and nonpoint source.
    I am not advocating that, but what I am trying to get the 
message across is a sincere attempt in this bill, as Tim 
mentioned, will only hurt those that need it the most. We have 
got to figure out some other creative way that serves as a 
disincentive to stop this practice.
    Mr. Upton. Well, I only dare to say that $100 million is 
not enough in terms of what is needed. We recognize that. It is 
a start. We have competing priorities for sure in lots--in 
different areas, whether it be prescription drugs or highways 
or national defense, you name it. And what, in essence, we are 
trying to say is that we are going to help those States who 
also make it a priority, knowing that much of their funds is 
collected from us on our own bills.
    And as we try to pick and choose, we will reward those 
States that, in fact, do make it a priority, and make it a big 
disincentive for other States not to drop it.
    At this point I will yield for questions to our colleague 
Ms. Eshoo. Again, and she missed my statement at the beginning, 
but a very able member of this committee and very grateful for 
her leadership on this particular issue as a sponsor with Mr. 
Shimkus.
    Ms. Eshoo. Thank you, Mr. Chairman, for your generous 
words. I appreciate it very much.
    I want to start with Mr. Muleta and then open it up to the 
rest of the panel.
    As you know, section 5 of the bill asks the FCC to review 
the accuracy requirements for rural carriers. I have always 
been a proponent of, you know, the carrot-and-the-stick 
approach, and I think that when it comes to getting this done, 
you know, that that--I think I would characterize that that is 
part of it.
    Do you have any suggestions about the whole issue that 
somehow we are weakening the accuracy requirements for rural 
carriers, and that that is a nonstarter? And I wanted the rest 
of the panel to weigh in on this as well. Would you comment on 
that?
    Mr. Muleta. I think that the first thing to note is that in 
order for something like E-911 to work, and to work seamlessly, 
the standards are going to have to be national, and they have 
to be uniform. So that is the starting premise.
    Now, stepping back from that, I think that the next set of 
questions that we have to address are, are there geographical, 
technical parameters or conditions that make it difficult to 
implement to a set standard.
    The answer is that, apparently, there are.
    However, should we depart from 100 percent compliance at 
some point is a separate question from addressing the technical 
issues that come up in between. So I think, you know, as I 
mentioned in my testimony, the FCC is already engaged in a 
dialog with both vendors, carriers, the PSAP community to 
identify, A, what are the issues, under what circumstances do 
these issues come into play, and then, you know, sort of what 
is the basis on which we need to depart from them while still 
getting to 100 percent compliance on the national standards. 
So, I mean, I think the bill is asking those sets of questions.
    We are already engaged in that discussion, as I mentioned. 
We are also doing it in a much broader context, the National 
Network Reliability and Interoperability Council, because we 
need to understand how does this all fit in with all the other 
public safety issues and homeland security issues that are in 
play.
    Ms. Eshoo. I appreciate what you are saying. Would an 
additional study help you in what you are describing or not?
    Mr. Muleta. I think that is what we are already engaged in. 
I think the chairman announced we are going to do the NRIC 
analysis. We are going to have this presented to the technical 
advisory community in January that the FCC has to advise it. So 
we are already engaged in that discussion.
    However, I think the commissioners and the staff working on 
this matter believe that this is part of a a uniform national 
standard. We need to get 100 percent compliance, and we need to 
have a dialog between all the various stakeholders to make sure 
that to the extent that there are hurdles that we limit them to 
the extent, you know, the scope of these hurdles and then, as 
we implement them, make sure that we get to 100 percent uniform 
compliance at some point.
    That is what we are striving for. I don't think we want to 
depart from those principles. I am not sure from my review of 
the bill that there is actually any debate about this broader 
goal, so----
    Ms. Eshoo. Anyone else like to comment?
    Mr. Addington. Sure. I think it is real appropriate for me 
to comment on that. You know, I think what we are talking about 
is----
    Ms. Eshoo. I love your energy.
    Mr. Addington. Thank you. It is an energizing topic.
    This is an exciting topic because of all the things that we 
have to do that the government is telling us to do right now 
this one does save lives, and we appreciate that. The 
flexibility--we are asking for flexibility, and I think the FCC 
in the waiver process has shown a real ability to work with us 
and understand our issues, and I applaud the FCC.
    I told Chairman Powell Tuesday morning at a meeting of the 
CTI executive committee specifically that it has been so 
helpful for small and rural carriers to be able to state our 
case.
    We all have different cases, and that is the weird thing 
about this. There has always been this--you know, it is not the 
same issue across the board. So I think the waiver process--you 
know, thank you, it has been working well. Flexibility is what 
we are asking for.
    Because I have built networks in urban areas and rural 
areas. I am not necessarily in a position where I am going to 
be--have difficulty to meeting the accuracy standards. However, 
a lot of my counterparts who have remote areas that they have a 
highway traveling through their territory and there are truck 
stops and towns down the highway and basically their cell sites 
are just placed every 20 miles or so and digital every 8 miles 
or so. The difficulty in trying to triangulate off of that is 
high and what we are fearful of is having to build all of these 
sites that are not customer driven for quality coverage and 
capacity and things like that. And many of the small rural 
carriers are very capital strapped.
    So, you know, I think, really what we are looking for is, 
and maybe on a case-by-case basis, is the understanding, the 
flexibility that they have shown so far anyway with the waiver 
process. And I believe that would work.
    Ms. Eshoo. Thank you, Mr. Chairman. I think my time is up. 
Is it?
    Mr. Upton. Mr. Haynes wanted to say something.
    Ms. Eshoo. Oh, all right.
    Mr. Haynes. I was just going to add that your question was, 
are we weakening the accuracy standard with some of the 
measures in the legislation? Truthfully, no. Potentially, we 
are putting it at one heck of a risk.
    The way that the language is written it kind of puts the 
gun to the head of the FCC, and it pretty much says in so many 
words--I worked in Washington for 11 years. I read that as a 
lobbyist. I read that as a former agency deputy director. It 
tells me what I need to be doing, and it tells me what your 
desires are in that language, and that may not necessarily be 
what you are trying to convey with this overall scope and 
intent of this bill.
    I would just note that the process is working, and it is 
working very well. If we had exhausted all the opportunities 
all throughout the process, that would be one thing. But we 
have just begun. The carrier discussions have been productive 
with the FCC. I have been engaged in some of those, and I just 
appreciate the opportunity that the Congress potentially is 
looking to give by letting the FCC do its job.
    Ms. Eshoo. Well, this is valuable testimony. That is why 
these hearings are so important. I think that some of the 
language that is in the bill may be actually redundant, that 
the FCC, given what Mr. Muleta has said, that they are moving 
along.
    So thank you very much for your cooperation and your 
enthusiasm and your constructive comments and thank you again, 
Mr. Chairman.
    Mr. Upton. Thank you.
    Recognize Mr. Shimkus from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Just--first, just a comment to our elected treasurer. I 
used to be a county treasurer, and I know you probably know our 
State treasurer, Judy Barr Topinka, who is quite fun.
    But as an elected treasurer you understand that I took a 
little bit of exception at your opening statement when you said 
you can't penalize people for what the legislature does because 
they have no control. Well, this is--here we have a 
constitutional republic, people do vote; and I would always 
take exception that the public has no way of enforcing any 
discipline on elected officials because they do so in our case 
every 2 years at the ballot box. That is why we have 
associations and that is why we have organizations to let 
elected representatives know the needs.
    So I would hope that when funds are being robbed for 
purposes and the people really get upset that they make that 
point known. We are held accountable with that on a lot of our 
budgetary antics all the time here. I have to answer tough 
questions every election cycle on why we are doing this to the 
highway trust fund or why we are doing this to the Social 
Security trust fund or this--and so I just want to put that on 
the table.
    Mr. Muleta, my good friend Terry suggests in his testimony 
that vendors of E-911 location technology should be held 
accountable for performance and follow through. How responsible 
are vendors for delay in E-911 deployment?
    Mr. Muleta. Thank you for that difficult question.
    Mr. Shimkus. I have got great staff.
    Mr. Muleta. How responsible are they? I think what I would 
like to start out with is, first, that you know our approach in 
the United States has been to let competition work in the 
wireless sector in terms of the evolution of the services so 
that over time as technologies improve that we are getting 
better and better services. The kind of standards that we are 
setting are the benchmark, the floor, as opposed to the ceiling 
of what we expect people to be able to do. As such, our 
approach has never been to specify a particular technology 
choice or solution.
    So, for example, in wireless E-911 there are two 
approaches, basic approaches. There is a handset approach, and 
then there is also the network-based approach. Both have 
tradeoffs in terms of cost-benefit, in terms of timing of 
deployment as well as the cost to deploy.
    So I think what I am encouraged by is that we are 
constantly hearing from vendors about new and improved 
technologies, both from existing vendors and new potential 
vendors coming into the marketplace. So it is very difficult 
for me to say that vendors are responsible for some sort of 
this.
    I do think it is important to note that all of us have a 
role in doing this, making this roll out. What probably needs 
to happen is a dialog between people that are aware of 
technology, such as the vendors, the carriers, the PSAP 
community, to determine what is possible in terms of 
deployment. So I don't think it would be a fair representation 
to say that the carriers are responsible for the delay. I think 
it is important to say that we----
    Mr. Shimkus. No, I am trying to say the vendors are 
responsible for the delay.
    Mr. Muleta. Are or are not?
    Mr. Shimkus. Are, in cases. And what are you doing about 
acknowledging that fact? The carrier can do all they want, but 
if the vendor is not following through and there is a possible 
date certain, then how is the FCC trying to reconcile that 
problem with what the carrier has to deal with?
    Mr. Muleta. I think it is important. What we are doing is 
we are having the stakeholders communicate so the vendors are 
communicating with us, also with the carrier and also with the 
PSAPs so that we are trying to match the timing and 
implementation deadlines with what is possible with the 
available technology. There are multiple choices for 
technologies and what we are encouraging all of the 
stakeholders to do is to communicate so that the community's 
expectations about the availability of this technology matches 
the availability of the technology in the marketplace.
    Mr. Shimkus. So the FCC does not plan to take any action 
against vendors that are clearly causing delays in E-911 
implementation.
    Mr. Muleta. I think our authority right now is primarily 
with the carriers. But we are engaged in discussions on a daily 
basis with technology providers to make sure that they 
understand----
    Mr. Shimkus. Terry, can you tell us the problem?
    Mr. Addington. Certainly, Congressman. My issue has been 
with vendors.
    Mr. Shimkus. I am not surprised.
    Mr. Addington. I am not alone. But, you know, it is not a 
prevalent problem certainly with the large carriers because 
that is who the vendors courted first. As a small carrier, 
early on in 2001 when I wanted to get hot and heavy on this 
project we couldn't even get certain vendors--quote, unquote--
certain vendors to return our phone calls. It took months and 
months to get certain vendors to even return our phone calls 
just to get a presentation to see whether their product could 
deliver. It has been an ongoing problem with certain vendors.
    I am gratified that I finally found a vendor that will work 
for me. I choose a network solution, because it is right for my 
customer. I could have chosen a handset solution. It wouldn't 
have been right for my customer. I would have left 15,000 
analog subscribers uncovered that want analog service that have 
chosen not to go digital, and I would not have served 100,000 
roamers that I service every single month on a handset 
solution. Network solution, I service all of those. So I 
focused particularly on a network solution that would serve my 
customers.
    The issue with the vendors is that they need accountability 
as much as I need accountability, and that is where I hope the 
office of E-911 coordination will help.
    Mr. Shimkus. Thank you.
    Mr. Chairman, I am not sure of the rules you are operating 
under. Are you going to allow us to ask another question or can 
we----
    Mr. Upton. You can.
    Mr. Shimkus. [continuing] just extend our question time for 
a minute?
    Mr. Upton. Keep going.
    Mr. Shimkus. Thank you Mr. Chairman.
    Mr. Haynes, what technological solutions have Tennessee's 2 
or 3 carriers employed to successfully meet the FCC accuracy 
requirements?
    Mr. Haynes. Most of those are using network solutions. We 
may have carriers--we still have one carrier I think is 
undecided on what technology they want to use. As we have 
mentioned in our written testimony, regardless of your 
solution, whether it is handset, whether it is network, you are 
going to have challenges. You are going to have issues.
    I would just like to add to what Mr. Addington had 
commented on. He is absolutely right. A carrier can easily be 
at the mercy of the technology vendor. We ran into that on our 
phase II trial.
    Other carriers have run into it in our State. They have 
asked us on behalf of their carriers they represent for 6-
month, 12-month extensions to our own State requests for 
service. We wouldn't give it to them. We would give them 30 
days at a time because we knew that they would take every inch 
to the goalpost, so to speak, in running out the clock.
    So what we did was address things on a case-by-case basis 
with the carriers as long as they were acting in good faith, 
and that has worked. It has served us well.
    I think it is also imperative to point out in this 
discussion that there is this umbrella called rural carriers in 
this country. Then you have got good guys like this fellow 
right here that is just knocking the sky out trying to do the 
right thing. Then you have got some people in that group, in 
all honesty--and I have talked with some of them in my State--
that have said oh, yeah, we are just like him. We are just like 
him. It is like, well, what have you done? I don't know--you 
know, the FCC has given us an extension on this so far. We are 
Tier 3, so we will get back with you.
    There are people taking advantage of the situation and the 
work of people like Mr. Addington here, and that is where I am 
saying we need to separate these folks out, look at them on a 
case-by-case basis and then decide who is acting in good faith 
and who is not.
    Mr. Shimkus. Mr. Chairman, if I can finish up. My last 
question is really for Terry again and Mr. Muleta. Why can't 
the success of Tier 3 carriers in Tennessee be duplicated 
across the United States?
    Mr. Haynes. I would argue that it can. It just takes 
commitment. It does take money. But it--first and foremost, it 
takes the commitment of that carrier. I will give you an 
example.
    One of the two first Tier 3 carriers, a co-op that deployed 
in our State, did not want to do it at first. They wanted to 
wait. And their response was--and I know these people 
personally. They are old friends of mine. They said, well, our 
counsel--come to find out their counsel in Washington was 
telling them that, you know, they are probably not going to 
have to do this because of the unique circumstances. This was a 
year or more ago.
    I said, I will tell you what. If you will deploy, I will 
make sure that you do--we do the best to give you 100 percent 
cost recovery, like we do all carriers. Consequently, our State 
board passed a policy saying that member-owned cooperatives 
should receive first priority, not last priority to cost 
recovery from the State of Tennessee with the PSAPs.
    So it takes a commitment. It can be done. But in all 
fairness to Mr. Addington, just like we found in Tennessee, 
there are going to be places in this country you will never 
meet that standard. Physics will not allow you. But it has got 
to start with the commitment from the guys and women out there 
exploring the opportunities to see can we do this. We are going 
to try to do this, and if we fail then we will go and try to 
request assistance.
    Mr. Shimkus. Does Mr. Muleta or Mr. Addington want to add 
to that?
    Mr. Addington. Yeah, I do.
    It can happen. Two or three carriers are every bit as 
committed as anybody else. We have a little bit different 
issues than the big guys. You know, we are not as wealthy and 
powerful. We don't have the buying power. We don't have the 
resources, the human resources.
    Right now, I have got two people in my office that focus on 
government mandates. Right now, they are fully focused on local 
number portability. E-911 is something else they all do.
    I have become the champion of the E-911 cause. We have--
Verizon's Washington office has more people as lobbyists than I 
do as employees, I suspect; and that is a big issue. We are 
committed. I am committed as the kind of unofficial leader of 
Tier 3 carriers in the country. I am committed to this project. 
We will deploy E-911 phase II. I wish it was 6 months ago or a 
year ago. We will do it.
    Mr. Shimkus. Mr. Muleta, do you want to add?
    Mr. Muleta. Yes, I think it is possible. I think we need to 
make sure that it is approached on a case by case and not 
provide a blanket statement. What we are trying to do right now 
is to ascertain in the sort of individual circumstances what 
are the timelines that achievable, how do we get to 100 percent 
compliance and how do we get the information that is necessary 
both to the PSAP community which has to implement it as well as 
to the carrier community that has to purchase and deploy the 
technology.
    So we are working very hard on that. I think it is possible 
and I encourage all of us not to depart from trying to achieve 
that sort of full compliance of E-911 deployment in all parts 
of the U.S. .
    Mr. Shimkus. Thank you.
    Mr. Chairman, if I may, I notice my friend, Mr. Markey, has 
arrived. We want to welcome him to the hearing. But I do want 
to--he is my partner when I did my kids.us advertisement at the 
beginning--he is my partner in crime on that. And I just want 
to let him know that I did my advertising sequel, so you can 
skip it. It has already been done.
    Mr. Chairman, I yield back.
    Mr. Upton. Thank you, Mr. Shimkus.
    Recognize Mr. Markey, the ranking member.
    Mr. Markey. Thank you so much.
    We only have, on our dot kids site, though, kind of caped 
crime crusaders. It is all cartoons. It is all, you know, 
pretend. It is not real.
    So my question to you, Mr. Muleta, is we are focusing on 
the so-called phase II E-911 implementation, where the public 
safety answering points can obtain the location information of 
an emergency caller. My question to you is, where are we on 
implementation of phase I, the first phase? What percentage of 
the country is covered by phase I and are some of the carriers 
just going to skip phase I and go right to phase II, or should 
we amend the pending bill to make grants available for both 
phase I and phase II?
    Mr. Muleta. I would defer on the sort of percentage 
information. I am not prepared to provide that information 
right now.
    Mr. Markey. Have you got some ball park estimate? I mean, 
it doesn't even have to be Fenway Park. It can be Yellowstone 
Park. I mean, just some number that is broad enough to give us 
a range of an idea of how much of phase I was ever completed.
    Mr. Muleta. Okay. I believe based on--it is around 65 
percent of the communities are phase I compliant. I think to 
address the issue all of the underlying premises of all the 
discussion that we have been having is--really applies to both 
phase I and phase II. You know, to the extent--you know, what 
drives this process is the readiness of the stakeholders. If 
the PSAPs are not ready to implement phase I, then we never get 
to phase II. If they are not ready to implement phase II, they 
are not ready to implement phase II.
    So in terms of funding and those type of issues I think it 
is right on track. In terms of trying to address the issues, I 
defer to the Congress as to how to craft the language. But I 
think all the issues that we are talking about apply equally to 
both phase I and phase II. It is obviously necessary to have 
phase I before stepping up to phase II.
    Mr. Markey. So you would fund phase I as well.
    Mr. Muleta. I think as part of this sort of national broad 
goals, yes, I think it would be necessary--it would be, I 
think, helpful to provide funding for those communities that 
can't get even to phase I to provide them with funds. I defer 
to the folks from the States to also provide guidance on that 
issue because they are much more----
    Mr. Markey. I could go with a show of hands here. How many 
believe that phase I should also be funded? Mr. Addington. And 
Mr. Haynes. Mr. Berry.
    Mr. Berry. In Indiana, we are 100 percent phase I compliant 
or 99 percent phase I compliant.
    Mr. Markey. So you are saying, why should the good States 
be punished?
    Mr. Berry. We are already there.
    Mr. Markey. You are already there so you can't support--so 
let me--Mr. Haynes, you would like to comment.
    Mr. Haynes. Mr. Markey, I would just say that in Tennessee 
we have been getting the cake with the icing. The two have come 
together. Our State has insisted on both. Because, technically, 
as you know, phase I is the default if something goes wrong and 
phase II does not work. So we have approached it with our 
carriers that, hey, it is a--E-911 is a package. It is just for 
your convenience from a regulatory standpoint that you get to 
implement it in one of two phases.
    Mr. Markey. Okay. So let me just follow up; and then I will 
come back to you, Mr. Addington.
    Mr. Haynes, I have a question again about the public safety 
answering points where these 911 emergency calls will come in. 
Perhaps you can't speak to this, but my question is about 
redundancy and power backup. What is typical for the public 
safety answering points in urban and rural areas with respect 
to contingency plans for these public safety answering points 
in the case of a blackout or if the public safety answering 
point itself is the target of an attack, God forbid? What is 
the capacity to keep going through that kind of a situation 
where it is not operable?
    Mr. Haynes. My experience in Tennessee is that urban and 
rural PSAPs alike are all on backup emergency generation, ready 
to kick in at any given point in time.
    In terms of losing a PSAP--and I will give you an example. 
Earlier this year, Jackson, Tennessee, close to where I grew 
up, a tornado took out two of the three PSAPs serving that 
entire county; and it is one of the more heavily populated 
counties in the State. Luckily, they had a backup PSAP that 
they just established. They took a lot of criticism over it 
because you have to make the investment, and all of a sudden 
this volunteer fire department that served as a backup PSAP was 
serving a pretty sizable urban/rural area in Tennessee.
    So I would say in terms of the electricity generation is 
there in most cases, I would think, across the Nation; and then 
it is most of the practice, too, that there are backup PSAPs 
that you can shift to.
    I would just add to that that the board that I work for is 
the State's authority that approves the increase of local 911 
rates that are collected by the local 911 districts. They do 
not approve a single increase unless that facility has not only 
backup generation and means to deal with the issues you are 
talking about but that it is adequate of handling the call load 
that can potentially happen in that area.
    Mr. Markey. Okay.
    And, Mr. Addington, the good news for you is that Verizon 
has fewer and fewer lobbyists the more successful they become 
in driving their competitors out of business.
    Mr. Addington. They are successful, aren't they?
    Mr. Markey. They have needed fewer people here in town. So 
perhaps only by them coming down to the level of your employees 
you don't have to go up to them.
    So can you give us your comment on the issues which Mr. 
Haynes was just commenting upon?
    Mr. Addington. On the emergency backup plan.
    Mr. Markey. The backup plan.
    Mr. Addington. Yeah, it is very important. All of our cells 
that we invest in a backup infrastructure, all of our cell 
sites have I believe it is 4 hours of automatic battery backup. 
Then we deploy mobile generators. We have a limited number of 
mobile generators to provide ongoing backup for individual cell 
sites to go back beyond their battery backup.
    Our cell site--I mean, our switch is in a huge old AT&T 
bomb shelter--that is the best way I can describe it--that I 
think could withstand a nuclear blast. And it has a huge diesel 
backup that--you know, I am really not sure. I guess as long as 
we have diesel it will run. So--I mean, it is quite extensive.
    Mr. Markey. Okay. Great.
    And a final word, Mr. Muleta. What would you like us to 
take out of this hearing?
    Mr. Muleta. I think, first of all, that--to thank you and 
your colleagues for the leadership that you have demonstrated 
in this area and the initiative that you are taking with the 
legislation and that, you know, we need to encourage all the 
stakeholders to work together. This is a very complicated set 
of issues. It is not something that can be easily divined. So I 
ask for that level of support.
    Mr. Markey. Thank you.
    Well, I can tell you without any question that Chairman 
Upton and I are committed to working with Congresswoman Eshoo 
and Congressman Shimkus and all of the members of the committee 
along with the community that all of you represent to make sure 
that we put in place something that will be there when the 
American people need it. We thank you so much for all of the 
work that you have committed to try to create something that 
can help to protect the public safety in our country.
    I thank you, Mr. Chairman, for having this hearing, 
especially on this momentous day, anniversary. I think if we 
could do something with 911 to commemorate 9/11 we would have 
done something quite important. Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Markey.
    Again, I want to thank all of you for being here this 
morning and the work of our colleagues.
    I would like to say though we are not prepared to announce 
a markup date, but we fully intend to do it as early as next 
week and work with Mr. Markey and others to make sure we have a 
good day and time. We appreciate your enthusiasm, your input; 
and we look forward to getting this bill out of the 
subcommittee and to the House floor as quick as we can.
    Thank you very much. We are now adjourned.
    [Whereupon, at 11 a.m., the subcommittee was adjourned.]


</pre></body></html>
